U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                     The Federal Bureau of Prisons’
                    Compassionate Release Program
                                      April 2013




                                      I-2013-006

                                EXECUTIVE DIGEST 



      In the Sentencing Reform Act of 1984, Congress authorized the
Director of the Federal Bureau of Prisons (BOP) to request that a federal
judge reduce an inmate’s sentence for “extraordinary and compelling”
circumstances.1 Under the statute, the request can be based on either
medical or non-medical conditions that could not reasonably have been
foreseen by the judge at the time of sentencing.2 The BOP has issued
regulations and a Program Statement entitled “compassionate release” to
implement this authority.3 This review assessed the BOP’s
compassionate release program, including whether it provides cost
savings or other benefits to the BOP.

RESULTS IN BRIEF

       The Office of the Inspector General (OIG) found that an effectively
managed compassionate release program would result in cost savings for
the BOP, as well as assist the BOP in managing its continually growing
inmate population and the significant capacity challenges it is facing.
However, we found that the existing BOP compassionate release program
has been poorly managed and implemented inconsistently, likely
resulting in eligible inmates not being considered for release and in
terminally ill inmates dying before their requests were decided.

       The BOP does not have clear standards on when
compassionate release is warranted, resulting in ad hoc decision
making. The BOP’s regulations and Program Statement provide no
criteria or standards to use in evaluating whether a medical or non-
medical circumstance qualifies for consideration. As a result, we found
that BOP staff had varied and inconsistent understandings of the

       1  For inmates whose offenses occurred on or after November 1, 1987, the
applicable statute is 18 U.S.C. § 3582(c)(1)(A). For inmates whose offenses occurred
before November 1, 1987, 18 U.S.C. § 4205(g) remains the controlling law, even though
it was repealed as part of the restructuring of federal sentencing law under the
Sentencing Reform Act.

       2  In response to a working draft of this report, the BOP cited to the legislative
history of 18 U.S.C. § 3582(c), which referenced terminal illness as an extraordinary
and compelling circumstance in which a motion under this provision would be
warranted. The BOP stated that the legislative history helps to explain the approach
the BOP has traditionally exercised in relation to compassionate release requests.

       3 BOP officials and institution staff use “compassionate release” and “reduction
in sentence” interchangeably to refer to this program. In this report, we refer to the
program as compassionate release.


U.S. Department of Justice                                                                  i
Office of the Inspector General
Evaluation and Inspections Division
circumstances that warranted consideration for compassionate release.
For example, at some institutions, only inmates with a life expectancy of
6 months or less were deemed eligible for consideration. At other
institutions, inmates with a life expectancy of 12 months or less were
considered eligible candidates. We further found that although the
BOP’s regulations and Program Statement permit non-medical
circumstances to be considered as a basis for compassionate release, the
BOP routinely rejects such requests and did not approve a single non-
medical request during the 6-year period of our review.

       ODAG and BOP officials told us that the BOP is currently revising its
compassionate release regulations and, subsequently, the compassionate
release Program Statement. In addition, the BOP is drafting a new
guidance memorandum for medical institutions that will expand the
compassionate release program by making inmates with a life expectancy
of up to 18 months eligible for consideration and assist staff who review
compassionate release requests in understanding what level of functioning
is sufficiently “extraordinary and compelling” for inmates with debilitating
medical conditions to be considered for release. However, the BOP did not
provide the OIG with a copy of the memorandum under consideration and
could not tell us when it would be finalized.

       The BOP does not have formal timeliness standards for
reviewing requests, and timeliness standards for inmate appeals do
not consider the special circumstances of medical compassionate
release requests. Although many inmates eligible for compassionate
release have terminal illnesses and limited life expectancies, the Program
Statement simply directs staff to “expedite” the review process. We found
that not all institutions have timeliness standards, and for those
institutions that do, the timeframe ranges from 5 to 65 days. In
addition, the process available to inmates to appeal a Warden’s or
Regional Director’s denial of a compassionate release request can take up
to more than 5 months to complete.

       The BOP does not have effective procedures to inform inmates
about the program. The compassionate release program is not one of
the BOP programs that staff is required to inform inmates about. As a
result, we found that the means used to inform inmates about the
program are informal and vary by institution. We also reviewed
handbooks provided to inmates upon arriving at an institution and found
that only 8 of the 111 handbooks had information regarding
compassionate release.4

       4 BOP institutions are not required to have handbooks, although we found that
most institutions create their own handbooks.


U.S. Department of Justice                                                         ii
Office of the Inspector General
Evaluation and Inspections Division
      The BOP does not have a system to track all requests, the
timeliness of the review process, or whether decisions made by
Wardens and Regional Directors are consistent with each other or
with BOP policy. The BOP cannot account for all compassionate release
requests processed at its institutions from 2006 through 2011 because it
tracks requests only in two situations: first, when a request has been
approved by both a Warden and a Regional Director and has been sent to
the BOP Director for consideration, and second, when an inmate has
appealed a Warden’s or Regional Director’s decision denying a request.

       We also found that the BOP cannot determine if requests are
processed in a timely manner because the BOP does not track the time it
takes to approve or deny requests. As a result, the BOP cannot
determine if delays in the process exist, take corrective actions where
delays occur, or ensure that inmates who may be eligible for the
program, particularly those with terminal illnesses, are considered for
release in a timely manner. According to case files provided by the BOP,
in 13 percent (28 of 208) of the cases where inmate requests had been
approved by a Warden and Regional Director, the inmate died before a
final decision was made by the BOP Director.

      In addition, we found that the BOP does not conduct any
systematic reviews of decisions made by Wardens or Regional Directors
to ensure that they are consistent with each other and with the BOP’s
Program Statement and the underlying statutory authority. As a result,
the BOP cannot ensure the appropriateness of denial decisions made by
Wardens or Regional Directors.

       The release of inmates through the compassionate release
program provides cost savings for the BOP and assists the BOP with
prison population management. We found that a properly managed
compassionate release program inevitably provides cost savings to the
BOP and provides assistance to the BOP in addressing its ever-increasing
and significant capacity problems.5 However, we also found that the
BOP does not maintain cost data associated with the custody of inmates
eligible for consideration under the program, and we found that the BOP
has conducted no analysis of cost savings achieved by releasing such
inmates. As a result, neither the BOP nor the OIG can determine with
any precision the costs associated with providing health care to inmates


       5  We recognize that, depending upon the nature of the medical condition and
the financial and health insurance circumstances of the inmate, in at least some
situations the inmate’s release may result in additional health care costs to other
government programs, such as Medicare or Medicaid.


U.S. Department of Justice                                                            iii
Office of the Inspector General
Evaluation and Inspections Division
eligible for compassionate release or the cost savings achieved by
releasing eligible inmates.

      A small percentage of inmates were rearrested after being
released under the compassionate release program. In considering
the impact of the compassionate release program on public safety, we
found a recidivism rate of 3.5 percent for inmates released through the
program. By comparison, the general recidivism rate for federal
prisoners has been estimated to be as high as 41 percent. The OIG
recognizes that approving and releasing more eligible inmates through
the compassionate release program could result in some increase in the
number of inmates who are rearrested. But the recidivism data we found
demonstrates that a carefully and effectively managed program can
minimize that risk if careful consideration is given to an inmate’s
potential risk to the community as part of the assessment process.

RECOMMENDATIONS

       In this report, we make 11 recommendations to improve the BOP’s
management of the compassionate release program and to ensure that
eligible inmates are considered for release. These recommendations
include considering appropriately expanding the use of the
compassionate release program as authorized by Congress and as
described in the BOP’s regulations and Program Statement to cover both
medical and non-medical conditions for inmates who do not present a
threat to the community and who present a minimal risk of recidivism,
updating written national policies to accurately reflect the BOP’s criteria
for determining eligible medical and non-medical requests, and
establishing timeframes for processing requests at each step of the
review process. We also recommend the BOP require that all inmates be
informed about the compassionate release program and that the BOP
track each compassionate release request, its status, and final
disposition. We also recommend that the BOP collect and assess the
costs for providing health services to inmates diagnosed with terminal
medical conditions and a limited life expectancy, and severely debilitating
medical conditions.




U.S. Department of Justice                                               iv
Office of the Inspector General
Evaluation and Inspections Division
                                   TABLE OF CONTENTS 



   BACKGROUND .................................................................................1
 

   PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW ......10
 

   RESULTS OF THE REVIEW.............................................................11
 

   CONCLUSION AND RECOMMENDATIONS .......................................53
 

   APPENDIX I: LEGISLATIVE HISTORY ............................................57
 

   APPENDIX II: METHODOLOGY OF THE OIG REVIEW.....................63
 

   APPENDIX III: FORMER BOP DIRECTOR MEMORANDUM ..............67
 

   APPENDIX IV: TALKING POINTS PREPARED FOR PRESENTATIONS 

     BY THE BOP’S GENERAL COUNSEL TO WARDENS AND OTHER
     BOP STAFF................................................................................69
 

   APPENDIX V: REQUEST DECISIONS ..............................................72
 

   APPENDIX VI: FEDERAL BUREAU OF PRISONS’ RESPONSE TO 

     DRAFT REPORT ........................................................................74
 

   APPENDIX VII: OIG ANALYSIS OF FEDERAL BUREAU OF 

     PRISONS’ RESPONSE ................................................................79
 




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                  BACKGROUND 



Introduction

      In the Sentencing Reform Act of 1984, Congress authorized a
federal court to reduce an inmate’s sentence of imprisonment, upon a
motion by the Director of the Federal Bureau of Prisons (BOP), if the
court finds “extraordinary and compelling” circumstances exist that
warrant a reduction and that the reduction “is consistent with applicable
policy statements” of the U.S. Sentencing Commission.6 However, absent
a motion by the Director of the BOP, a federal judge has no authority to
modify an inmate’s sentence for “extraordinary and compelling” reasons.

      In connection with this authority, the BOP has promulgated
regulations and issued a Program Statement, both entitled
“compassionate release,” that outline procedures for an inmate to initiate
a request seeking a reduction in sentence for “extraordinary and
compelling” reasons and that outline the process by which the BOP will
consider the request.7 However, the regulations and the Program
Statement do not define “compassionate release” or what constitutes an
“extraordinary and compelling” circumstances.

      The BOP is responsible for the custody and care of approximately
218,000 federal offenders who are housed in 117 BOP-operated facilities
and in 15 privately managed or community-based facilities under
contract with the BOP.8 We found that, on average, only 24 inmates are
released each year through the BOP’s compassionate release program.9



       6  18 U.S.C. § 3582(c)(1)(A), which applies to inmates whose offense occurred on
or after November 1, 1987. For inmates whose offense occurred before that date, 18
U.S.C. § 4205(g) contains a similar provision and remains applicable to those inmates
even though the statute was repealed as part of the Sentencing Reform Act of 1984.
BOP officials and institution staff use “compassionate release” and “reduction in
sentence” interchangeably to refer to this program. In this report, we refer to the
program as compassionate release.

       7 The regulations are found at 28 C.F.R. § 571, subpart G, and apply to all
inmates, regardless of the date of offense.

       8There are currently 119 BOP-operated facilities. Our review is based on the
117 BOP facilities that were operational during the course of fieldwork.

       9  Average based on the number of inmates approved and released during the
scope of our review, 2006 through 2011.


U.S. Department of Justice                                                            1
Office of the Inspector General
Evaluation and Inspections Division
      The Office of the Inspector General (OIG) examined the BOP’s
implementation of the authority given to it by Congress and its process to
approve or deny inmate requests for “extraordinary and compelling”
reasons. Specifically, we examined the information the BOP provided
about the program to inmates and the policies and procedures the BOP
used to evaluate inmate requests, including any guidance or criteria the
BOP used to determine which circumstances qualified as “extraordinary
and compelling.” We also reviewed the timeliness with which the BOP
processed requests, as well as the costs associated with the custody of
inmates who might be eligible for release due to “extraordinary and
compelling” circumstances. Lastly, we assessed the recidivism rates of
those inmates who had been approved and released through the
compassionate release program.

      In this background section, we discuss the Department
components involved in the compassionate release program, the process
by which they consider inmate requests for release, and the federal laws
and regulations and Department policies governing the compassionate
release process.

Department Components Involved in the Compassionate Release
Program and the Review Process

      The compassionate release program involves three Department
components: the BOP, U.S. Attorneys’ Offices (USAO), and the Office of
the Deputy Attorney General (ODAG). This section briefly describes each
component’s role in the program and the compassionate release review
process.

The Federal Bureau of Prisons

      The BOP administers the compassionate release program in
accordance with 18 U.S.C. § 4205(g) (repealed 1987) or § 3582(c)(1)(A)
and 28 C.F.R. § 571.60-.64. Under these authorities, the BOP Director
may request a reduction in an inmate’s sentence based on “extraordinary
and compelling” circumstances that were not known at the time of an
inmate’s sentencing. However, the BOP generally has exercised its
authority only with inmates who are suffering from a life-threatening or
terminal medical condition, or who are severely and permanently
mentally or physically disabled.

U.S. Attorneys’ Offices

      The USAOs have two roles in the compassionate release review
process. First, when the BOP is considering whether an inmate is

U.S. Department of Justice                                             2
Office of the Inspector General
Evaluation and Inspections Division
eligible for compassionate release, the BOP seeks an opinion from the
Assistant U.S. Attorney (AUSA) who prosecuted the inmate’s case on the
circumstances underlying the inmate’s request. An AUSA may support
or oppose the inmate’s request when responding to the BOP. Second, if
the BOP Director approves a compassionate release request, the BOP will
contact the USAO in the district in which the inmate was sentenced to
request that the USAO make a motion to the federal sentencing court on
behalf of the BOP to reduce the term of the inmate’s sentence.

The Office of the Deputy Attorney General

       The ODAG reviews two types of inmate requests for compassionate
release that have been approved by the BOP Director: those made for
non-medical reasons and those from inmates who are severely and
permanently mentally or physically debilitated but whose life expectancy
is indeterminate or unknown. In those circumstances, if the BOP
Director approves the request, the request is forwarded to the ODAG for
its review and the ODAG can object or raise concerns with the BOP
Director before the request receives final approval.

The Compassionate Release Program’s Review Process

       According to the BOP’s Program Statement and 28 C.F.R.
§ 571.61-.63, the compassionate release program’s review process begins
when an inmate submits a request to the Warden. A request must
include the extraordinary and compelling circumstances that the inmate
believes merit consideration; a plan for where the inmate will reside if
released; and how he or she will support him- or herself if released. If
the basis for the inmate’s request is due to the inmate’s health,
information about where the inmate will receive medical care and how it
will be paid for must also be included.

       The Warden reviews the request and, if denying it, informs the
inmate, in writing, of the reasons for the denial. The inmate may file an
appeal through the BOP’s administrative remedy procedures.10 If the
Warden determines that the request warrants approval, the Warden
refers the matter in writing with an approval recommendation to the
Regional Director.

     Upon receiving a request that a Warden has recommended for
approval, the Regional Director conducts a review to determine if the

       10 BOP Program Statement 1330.16, Administrative Remedy Program,
establishes formal procedures for an inmate to seek review of any issue related to their
incarceration.


U.S. Department of Justice                                                             3
Office of the Inspector General
Evaluation and Inspections Division
request warrants approval.11 If the Regional Director denies the request,
the Regional Director informs the inmate of the reasons for denial, and
the inmate may file an appeal through the BOP’s administrative remedy
procedures. If the Regional Director approves the request, the request
with a written approval recommendation is referred to the BOP Office of
General Counsel at the BOP’s Central Office.12

       Upon receiving the approved request from the Regional Director,
the General Counsel solicits the opinion of either the BOP Medical
Director, for medically based requests, or the BOP Assistant Director,
Correctional Programs Division, for non-medical requests, as well as the
opinion of the prosecuting AUSA.13 The General Counsel then forwards
the inmate’s request with these opinions and the recommendation from
the Warden and the Regional Director to the BOP Director for final
decision. While both the BOP’s regulations and Program Statement give
the General Counsel the authority to make a final determination to deny
the inmate’s request, we were told by BOP Central Office staff and
officials that the General Counsel does not make any final decisions
regarding inmate requests for compassionate release.14

       We learned if the inmate’s request is based on non-medical
reasons or upon a severely debilitating medical condition and the inmate
has an indeterminate life expectancy, the BOP Director solicits the
opinion of the ODAG before rendering a final decision. No provision in
either the BOP regulations or Program Statement provides for or requires
such a consultation.



       11  On February 28, 2013, the BOP published an interim rule that expedited the
compassionate release process by removing the Regional Director level of review,
effective April 1, 2013. See Compassionate Release; Technical Changes, Interim Rule,
78 Fed. Reg. 40,13478 (Feb. 28, 2013).

       12 The BOP’s Central Office is located in Washington, D.C. The following
Central Office officials and their staff have roles in the compassionate release review
process: the Director of BOP; Medical Director and Assistant Director of the Health
Services Division; General Counsel and Assistant Director of the Office of General
Counsel; and the Assistant Director of the Correctional Programs Division.

       13 The BOP’s General Counsel told us that she reviews requests to determine if
they are medically appropriate. If the appropriateness of a medical request is
questionable, she meets with the Director to discuss the medical circumstances of the
request.

       14 We were told that, while a denial letter may be signed by the General
Counsel, all denials are in consultation and concurrence with the BOP Director.


U.S. Department of Justice                                                                4
Office of the Inspector General
Evaluation and Inspections Division
       If the BOP Director denies the inmate’s request, the inmate must
be informed of the reasons for the denial within 20 working days of the
Warden receiving the denial from the General Counsel, and the denial
constitutes a final administrative action that the inmate cannot appeal.
If the BOP Director grants the request, the BOP Director requests that
the USAO in the district in which the inmate was sentenced petition the
sentencing court to reduce the inmate’s term of imprisonment.15
Figure 1 presents a flow chart illustrating the process.




       15   If the original sentence included a term of supervised release to follow the
initially imposed term of imprisonment, the Warden must have included in the referral
to the BOP Director confirmation that release plans were approved by the appropriate
U.S. Probation Office. If the inmate will be released to an area outside the sentencing
district, the U.S. Probation Office assuming supervision must be contacted. The role of
the U.S. Probation Office was not part of this review because it is not a Department
component.


U.S. Department of Justice                                                            5
Office of the Inspector General
Evaluation and Inspections Division
   Figure 1: Compassionate Release Request and Review Process




         Source: BOP.




U.S. Department of Justice                                      6
Office of the Inspector General
Evaluation and Inspections Division
Federal Laws, Regulations, and Guidelines, and Department Policies
Related to Compassionate Release

      Below is a summary of federal laws and regulations regarding
compassionate release. Appendix I provides more descriptive information
about the laws and regulations relevant to the compassionate release
program.

Federal Statutes, Regulations, and Guidelines

Sentencing Reform Act of 1984 (Pub. L. No. 98-473, 18 U.S.C. §§ 3551-
3556)

      The Sentencing Reform Act of 1984, Title II of the Comprehensive
Crime Control Act of 1984, was passed by Congress and signed into law
by the President on October 12, 1984. The legislation permits an inmate
to request that the BOP Director make a motion to the federal sentencing
judge for a reduction in the inmate’s sentence for “extraordinary and
compelling” reasons.

      Under 18 U.S.C. § 3582(c)(1)(A), a sentencing court, on motion of
the BOP Director, may reduce the term of imprisonment of an inmate
sentenced under the Comprehensive Crime Control Act of 1984. The BOP
oversees this program in accordance with 18 U.S.C. § 3582(c)(1)(A) and
the procedures set forth in 28 C.F.R. § 571.60-.64.

      For those defendants who were sentenced for offenses that
occurred prior to November 1, 1987, the BOP’s compassionate release
program is governed by 18 U.S.C. § 4205(g). Although that statute was
repealed on November 1, 1987, it still applies to inmates whose offenses
occurred prior to that date. The repealed law states that under 18 U.S.C.
§ 4205(g), a sentencing court, on motion of the BOP, may make an
inmate with a minimum term sentence immediately eligible for parole by
reducing the minimum term of the sentence to time served.

28 C.F.R. § 571.60-.64 (Subpart G)

       Title 28 of the Code of Federal Regulations, § 571.60-.64,
subpart G, establishes the regulations and process for inmates and BOP
staff to initiate and process a request. The C.F.R. reiterates that a
request for compassionate release may be initiated only in the event of
“extraordinary and compelling” circumstances, but does not provide any
more definition than the U.S. Code as to what circumstances might
apply.


U.S. Department of Justice                                              7
Office of the Inspector General
Evaluation and Inspections Division
U.S. Sentencing Commission Guidelines

      The U.S. Sentencing Commission (USSC) is an independent federal
agency within the judicial branch that develops sentencing policies and
guidelines for use by judges in the federal courts. Pursuant to a
congressional directive, the USSC developed a policy statement to clarify
what constitutes “extraordinary and compelling” circumstances under
18 U.S.C. § 3582(c)(1)(A).16 The USSC’s policy statement provides four
examples of circumstances that would constitute “extraordinary and
compelling reasons,” provided that the defendant is not a danger to the
safety of any other person or to the community. According to the USSC
guidelines, extraordinary and compelling reasons exist when:

   1. The defendant is suffering from a terminal illness.

   2. The defendant is suffering from a permanent physical or medical
      condition, or is experiencing deteriorating physical or mental
      health because of the aging process, that substantially diminishes
      the ability of the defendant to provide self-care and for which
      conventional treatment promises no substantial improvement.

   3. The death or incapacitation of the defendant’s only family member
      capable of caring for the defendant’s minor child or minor children.

   4. Any other circumstance which the Director of the Bureau of
      Prisons finds to be an extraordinary and compelling reason.17

Department Policy

BOP Director Memorandum

      On July 22, 1994, the BOP Director issued a memorandum to BOP
executive staff regarding compassionate release requests. The
memorandum indicated that the BOP had recently expanded its “general

       16   In 28 U.S.C. § 994(t), Congress directed the U.S. Sentencing Commission to
promulgate general policy statements regarding the sentencing modification provisions
in 18 U.S.C. § 3582(c)(1)(A) and to describe what should be considered extraordinary
and compelling reasons for sentence reduction, including the criteria to be applied and
a list of specific examples. Rehabilitation of the defendant alone shall not be considered
an extraordinary and compelling reason.

       17 U.S. Sentencing Guidelines, § 1B1.13: Reduction in Term of Imprisonment
as a Result of Motion by Director of Bureau of Prisons (Policy Statement).
U.S. Sentencing Guidelines, § 1B1.13, was enacted in 2006, with definitions i‐iv
provided in 2007.


U.S. Department of Justice                                                             8
Office of the Inspector General
Evaluation and Inspections Division
guideline” in compassionate release cases to allow inmates with life
expectancies of no more than 1 year to be eligible for consideration.
According to the memorandum, prior to this revision, the BOP’s “general
guideline” required that an inmate have a life expectancy of no more than
6 months to be eligible for compassionate release. The memorandum
further indicated that, contrary to prior BOP practice, inmates with
extremely serious or debilitating medical conditions also were eligible to
be considered for compassionate release. The memorandum outlined
certain factors for BOP staff to consider in evaluating a request for
release, including the nature and circumstances of the inmate’s offense,
the age of the inmate, and the danger the inmate may pose to the public
if released.

BOP Program Statement 5050.46

       The BOP’s Program Statement, “Compassionate Release,
Procedures for Implementation of 18 U.S.C. § 3582(c)(1)(A) and
§ 4205(g),” was last revised by the BOP on May 19, 1998. It establishes
policies and procedures for submitting and reviewing compassionate
release requests, and includes processes for considering both medical
and non-medical requests. The Program Statement outlines the
objectives of the program, including that:

   	 a motion for a modification of a sentence will be made to the
      sentencing court only in particularly extraordinary or compelling
      circumstances that could not reasonably have been foreseen by the
      court at the time of sentencing,

   	 the public will be protected from undue risk by careful review of
      each compassionate release request, and

   	 compassionate release motions will be filed with the sentencing
      judge in accordance with the statutory requirements of 18 U.S.C.
      § 3582(c)(1)(A).

      The Program Statement also includes procedures for initiating a
request, approval of a request, and denial of a request. In addition, it
describes which offenders are ineligible for compassionate release. The
procedures contained in the Program Statement are the same as those
established in 28 C.F.R. § 571.61-.64.




U.S. Department of Justice                                                 9
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW 



Purpose

      Our review examined the BOP’s implementation of its authority to
seek from a federal judge a reduction in sentence for inmates for
“extraordinary and compelling” reasons and the BOP’s process for
approving or denying inmate requests pursuant to this authority.
Specifically, we examined:

      the BOP’s explanation of the program to inmates;
      the policies and procedures to grant compassionate release,
       including guidance or criteria used to approve or deny requests
       based on “extraordinary and compelling” circumstances;
      the timeliness of processing requests;
      the costs associated with the custody of compassionate release
       inmates; and
      the recidivism rates of those inmates approved and released.

Scope and Methodology

      Our review encompassed the BOP’s process and handling of
requests for compassionate release from calendar years 2006 through
2011. While our review focused on the BOP’s process, we also reviewed
the roles of the USAOs and ODAG in the compassionate release review
process. Our review focused on federal offenders, and therefore we did
not address state prisoners in BOP custody, military offenders, or
D.C. Code offenders.18

       Our fieldwork, conducted from March 2012 through September
2012, included interviews, data collection and analyses, and document
reviews. We interviewed BOP Regional Directors and Central Office staff
and officials, and ODAG officials. We also interviewed BOP institution
staff and staff at USAOs, and collected information from 100 Wardens
through a questionnaire. A detailed description of the methodology of
our review is in Appendix II.




       18A D.C. Code offender is a prisoner incarcerated in a BOP institution who was
sentenced by the U.S. District Court for the District of Columbia or by the District of
Columbia Superior Court after conviction for a D.C. Code offense.


U.S. Department of Justice                                                          10
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 



       The BOP does not properly manage the compassionate
       release program, resulting in inmates who may be
       eligible candidates for release not being considered.
       Problems with the program’s management are
       concentrated in four areas.

          	 First, the BOP has failed to provide adequate
             guidance to staff regarding the medical and non-
             medical criteria for compassionate release
             consideration.
          	 Second, the BOP has no timeliness standards for
             reviewing compassionate release requests, and
             timeliness standards for inmate appeals do not
             consider the special circumstances of medical
             compassionate release requests.
          	 Third, the BOP does not have formal procedures to
             inform inmates about the compassionate release
             program.
          	 Fourth, the BOP does not have a system to track
             compassionate release requests, the timeliness of
             the review process, or whether decisions made by
             institution and Regional Office staff are consistent
             with each other or with BOP policy.

       As a result of these multiple failures, we concluded that
       the implementation of the program is inconsistent and
       results in ad hoc decision making by the BOP in
       response to inmate requests. We further found that
       approximately 13 percent (28 of 208) of the inmates
       whose release requests had been approved by a Warden
       and Regional Director died before their requests were
       decided by the BOP Director. We also found that the
       compassionate release program could both provide cost
       savings to the BOP and help it in managing the growing
       federal prison population. In considering the impact of
       the program on public safety, we found that a small
       percentage of inmates were rearrested within 3 years of
       their release under the compassionate release program.




U.S. Department of Justice                                          11
Office of the Inspector General
Evaluation and Inspections Division
The BOP has not established adequate medical or non-medical
guidance for compassionate release consideration.

       Based on our interviews of BOP institution staff and Central Office
officials, our review of case files for all compassionate release requests
received by the BOP’s Central Office from 2006 through 2011, and our
analysis of Warden responses to our questionnaire, we found that the
BOP failed to provide institution staff with adequate guidance regarding
what an appropriate request for compassionate release is. Neither the
BOP’s regulations nor its Program Statement define what an
“extraordinary and compelling” circumstance is, and neither establishes
any criteria for evaluating medical or non-medical requests. We found
that this lack of adequate guidance resulted in BOP staff interpreting the
Program Statement differently.

       Of the 20 institution staff we interviewed, 11 (55 percent) said
there was no guidance other than the Program Statement, 5 (25 percent)
referred to their institution’s supplement to the Program Statement as
providing additional guidance, 2 (10 percent) referred to the BOP’s
publication entitled “Clinical Guidelines: Compassionate Release”
(Clinical Guidelines) as providing additional guidance, 1 staff member
(5 percent) referred to both the Program Statement and the institution’s
supplement to the Program Statement as providing guidance, and a
doctor (5 percent) from one institution referred to medical data on
survival rates of individuals with specific types of cancer as guidance in
evaluating inmate requests for compassionate release.

      Additionally, although the BOP regulations and Program Statement
provide no standards for evaluating a medical request for compassionate
release, a 1994 BOP Director memorandum (Memorandum) to BOP
executive staff established a 1-year life expectancy as “a general
guideline, not a requirement,” when considering medical requests for
compassionate release (see Appendix III). The Memorandum stated there
may be other “extremely serious and debilitating” cases that “fall within
the medical arena, but may not be terminal or lend themselves to a
precise prediction of life expectancy.” The Memorandum further
established factors to consider for possible recommendation for release,
including: the nature and circumstances of the offense, the age of the
inmate, and the danger the inmate may pose to the public if released.
The Memorandum specified that these factors were not criteria, but
guidelines to be evaluated. Staff was directed to rely on their correctional
judgment in making recommendations for compassionate release
consideration. However, the Memorandum provided no guidelines to
BOP staff for considering non-medical requests.


U.S. Department of Justice                                              12
Office of the Inspector General
Evaluation and Inspections Division
       We found that knowledge of the Memorandum and its use when
considering requests was limited. Only the BOP Director and General
Counsel referred to the Memorandum when asked if guidance other than
the Program Statement is utilized when considering compassionate
release requests. The BOP Director said the Memorandum provided
“clarity.” The General Counsel said there was no guidance other than
the Program Statement, but said the Memorandum included “things to
look for” when considering compassionate release requests. No other
Central Office officials or institution staff who review compassionate
release requests referenced the Memorandum as guidance that was being
used to consider compassionate release requests.

      In the sections below, we discuss our analysis of the BOP Program
Statement and the guidance provided by the Program Statement
supplements created by BOP institutions, and the BOP Clinical
Guidelines. We also discuss Sentencing Guidelines developed by the
U.S. Sentencing Commission regarding “extraordinary and compelling”
circumstances, as well as the BOP’s efforts to revise its regulations and
the ODAG’s role in reviewing requests for compassionate release.

Neither BOP regulations nor the Program Statement defines what an
“extraordinary and compelling” circumstance is.

       The BOP regulations and Program Statement provide no criteria for
BOP staff to consider in determining whether an “extraordinary and
compelling” circumstance exists. The regulations and Program
Statement provide no definitions, and neither provides any examples of
circumstances that qualify as “extraordinary and compelling.” As a
result, the BOP staff we interviewed provided us with differing views
about the meaning of “extraordinary and compelling.”

      We found that BOP Central Office staff considered “extraordinary
and compelling” circumstances to be either terminally ill medical
conditions with a life expectancy of 1 year or less or those who are
incapacitated and unable to perform their daily activities – criteria that
are found nowhere in the relevant statute, the BOP’s regulations, or the
BOP’s Program Statement. Other Central Office staff said that the BOP
also would consider non-medical requests if the inmate was the sole
surviving parent or caretaker of a minor child, as provided for in the
USSC Sentencing Guidelines (see pages 21 to 22 for more information on
the USSC Sentencing Guidelines).

      However, staff members at the three institutions where we
conducted interviews provided us with varied understandings of those
“extraordinary and compelling” circumstances that warrant

U.S. Department of Justice                                             13
Office of the Inspector General
Evaluation and Inspections Division
consideration for compassionate release. For example, a Medical Officer
at one institution said, “You can go anywhere with extraordinary and
compelling.” The Warden at a medical institution told us that
determining what is an “extraordinary and compelling” circumstance is a
“judgment call” and that he was not sure if there was an existing BOP
policy that explained it. An Associate Warden at another medical
institution said that he did not know what would constitute
“extraordinary and compelling” circumstances.

      A Senior Counsel to the Deputy Attorney General, who reviews
non-terminal medical cases and non-medical cases for the ODAG, told us
that requests are reviewed according to the statute, the BOP's
regulations, and the BOP's Program Statement.19 However, as we
discuss above, these provide no criteria, definitions, or examples of
circumstances that qualify as "extraordinary and compelling." The
Senior Counsel also told us that when reviewing requests she weighs
factors consistent with those considered by the BOP to determine
whether a particular case involves extraordinary and compelling
circumstances that warrant submission of a compassionate release
motion to a sentencing judge. For each medical request, the BOP
provides memoranda to ODAG which describe whether the inmate is
severely debilitated, among other information relating to a number of
factors including any proposed release plan and any public safety risk
posed by the inmate's release.

Institution Program Statement Supplements

       BOP policy permits Wardens to issue supplements for their
institutions in implementing BOP directives, including Program
Statements, program manuals, and operational manuals. An institution
supplement may not detract from or replace the BOP directive it
implements. The BOP’s Deputy General Counsel said that national
policy is “a broad brush approach” and that institution supplements
have more specific steps for the institution. We found that the BOP’s
Central Office does not approve or review institution supplements.
Rather, each Warden appoints a Directives Manager who ensures that
institution supplements are in compliance with national policy.

      All three institutions where we conducted interviews had
supplements to the BOP’s compassionate release Program Statement.
We reviewed these supplements and found that they were inconsistent

       19  We also interviewed a second ODAG official who started in the ODAG in
2012. At the time of our fieldwork, this official had reviewed only one compassionate
release request, in May 2012, which was outside the scope of our review.


U.S. Department of Justice                                                          14
Office of the Inspector General
Evaluation and Inspections Division
with one another in providing guidance on what circumstances were
“extraordinary and compelling.” For example, one of the three institution
supplements defined compassionate release as “release from
incarceration because of a terminal illness with a life expectancy of less
than one year, or when extraordinary or compelling circumstances
warrant release.” The second institution’s supplement defined
compassionate release as “. . . release due to extraordinary
circumstances or compelling circumstances which could not reasonably
have been foreseen by the court at the time of sentencing (i.e., terminal
illness).”20 The supplement for the third institution stated that “when
inmates are suitable candidates for reduction in sentence
(compassionate release) due to a medical reason and appropriate
arrangements can be made, the institution should expedite processing of
the release action.” None of the three institution supplements provided
guidance on what debilitating medical conditions or non-medical
requests would be eligible for consideration under the program.21

The BOP Program Statement does not adequately describe what medical
conditions are appropriate for compassionate release consideration.

      The Program Statement establishes a process for reviewing medical
requests, but does not provide any guidance on what medical conditions
are appropriate for consideration.22 For example, the BOP’s Medical
Director, who is responsible for providing recommendations to the BOP
Director for requests that already have been approved by a Warden and
Regional Director, said he believes terminally ill inmates include those

       20  This institution’s program supplement defines a terminal illness as “an
illness which is progressive and will inevitably result in the patient’s death regardless of
treatment” and life expectancy as “a clinical attempt to quantify the time that a
terminally ill patient has remaining to live.”

       21  One institution’s supplement contained “Procedures for Non-Medical Request
for Reduction in Sentence” and stated that “Unit Management will determine if the
request merits further recommendation,” but did not provide the circumstances or
criteria by which Unit Management should evaluate a non-medical request.

       22   In response to a working draft of this report, the BOP’s Deputy General
Counsel said that even with a consistent policy for evaluating compassionate release
requests, there will still be some subjective determinations by the doctors. For
example, a doctor could look at an inmate’s medical history, response to treatment, or
other factors and suggest a 1-year life expectancy, whereas another doctor could
suggest a 2- or 3-year life expectancy. He added that doctors’ opinions and patient
conditions may vary from case to case. While the OIG recognizes that doctors’ opinions
and patient conditions vary and that accurately predicting life expectancy is difficult, we
do not believe, as discussed below, that such difficulty justifies failing to provide BOP
staff with any criteria for evaluating these requests.


U.S. Department of Justice                                                              15
Office of the Inspector General
Evaluation and Inspections Division
with a life expectancy of 6 to 12 months. The Medical Director further
stated that predicting life expectancy is not an exact science and that
there is no hard data that accurately predicts life expectancy.23 Life
expectancy is not specified in the BOP’s Program Statement and is not
even cited as a factor that the BOP considers. The BOP’s Medical
Director also said there has been an increased focus on incapacitated
inmates, including those with debilitating medical conditions. Again,
there are no medical criteria in the BOP’s Program Statement regarding
inmates that are medically incapacitated. The Medical Director added
that when he reviews requests from inmates who are medically
incapacitated he considers the inmates’ ability to conduct their own daily
living activities, as well as the inmates’ mental status. Neither of these
factors is mentioned in the Program Statement.

       Given that the opinion of the BOP Medical Director is solicited only
after an inmate’s request has been recommended for approval by the
Warden and the Regional Director, Wardens and Regional Directors are
deciding inmate requests for compassionate release without the benefit of
any guidance from the Medical Director. Furthermore, if a medical
request is denied by the Warden or Regional Director for reasons that are
inconsistent with the Medical Director’s views, absent an inmate appeal,
the Medical Director will likely never be made aware of the inmate’s
request because the request is not sent to the BOP’s Central Office and
the decisions of Wardens and Regional Directors are not subjected to any
systematic reviews.

       Based on our interviews with Central Office officials and staff, as
well as our review of “talking points” prepared for presentations by the
BOP’s General Counsel to Wardens and other BOP staff (see
Appendix IV), we found that the medical criteria that BOP Central Office
officials and staff applied when considering compassionate release
requests were whether:

   	 inmates had a “[t]erminal illness,” which was defined as having a
      life expectancy of 1 year or less, or




       23  In response to a working draft of this report, the BOP also stated that
establishing adequate release plans is a challenging task because of the level of medical
care often needed for these seriously ill and often terminal inmates. The BOP is unable
to recommend a compassionate release request if an adequate release plan is not in
place. Therefore, subjective determinations and factors critical to whether an inmate
should be released will likely limit the number of inmates who may otherwise be eligible
for compassionate release.


U.S. Department of Justice                                                           16
Office of the Inspector General
Evaluation and Inspections Division
   	 inmates were “[s]everely physically or cognitively debilitated which
      significantly impairs physical and/or mental function and will not
      improve with treatment seriously limits daily activities.”

       The BOP also provided the OIG with two sets of training materials
prepared by the BOP Office of General Counsel – one for legal staff and
one for medical staff, social workers, and new Wardens in Federal
Medical Centers. The training materials for legal staff included the
medical criteria described above. The training materials for medical
staff, social workers, and new Wardens in Federal Medical Centers
included the medical criteria described above, as well as specific
examples of medical conditions and factors establishing debilitating
conditions. However, based on our interviews with staff at three
institutions, we concluded that these training materials were not
provided to all institution staff that review inmate requests.

       Furthermore, not all of the staff members we interviewed at the
three institutions were aware of the medical criteria described above. At
one medical institution, we were provided with three different criteria for
evaluating medical requests. Specifically, the chief of a group of staff
doctors at that medical institution who reviewed compassionate release
requests from inmates with cancer said he approves requests only where
the inmate has a life expectancy of 6 months or less. He added that if
the medical group at the institution does not approve a request, the
request does not move forward to the institution’s multi-disciplinary
committee for a vote on the request.24 By contrast, the chair of the
institution’s committee said that to receive approval for compassionate
release an inmate’s life expectancy must be 1 year or less, but also
indicated that this criterion is not written in policy. The Associate
Warden at the institution had yet another view, telling us that
“terminally ill” is not an officially defined term at the institution.

       Similarly, at another medical institution where we conducted
interviews, the Director of Nursing, who is a voting member of the
institution’s committee that determines whether to approve
compassionate release requests, explained that the “threshold” necessary
for approval of a medical request is a life expectancy of 6 months or less.
By contrast, a Unit Manager at the same medical institution, who also is
a voting member of the institution’s review committee, said there was no
specific definition of “terminally ill.”


       24 For those inmates requesting compassionate release for medical conditions
other than cancer, the multi-disciplinary committee considers the opinion of the
inmate’s primary doctor.


U.S. Department of Justice                                                        17
Office of the Inspector General
Evaluation and Inspections Division
       Finally, we were told by a Case Management Coordinator at a non-
medical institution, who reviews requests for compliance with BOP
policy, that the BOP does not define terminal illness. As noted above,
that is indeed what we found in our review of the BOP’s regulations and
Program Statement.

Clinical Guidelines

       As stated earlier, two institution staff we interviewed said they refer
to the BOP’s Clinical Guidelines to determine whether an inmate who
requests compassionate release is eligible for consideration. We found
that these Clinical Guidelines include definitions of terminal illness, life
expectancy, and compassionate release; program objectives; and other
factors to be considered by staff involved in the assessment of a request.
For example, the Clinical Guidelines define life expectancy as “a clinical
attempt to quantify the time that a terminally ill patient has remaining.
This estimate is made by the attending physician, and is based on the
progression of the illness as determined through collective medical
experience and literature.” Other factors to be considered include: (1) the
nature and circumstances of the offense; (2) the criminal and personal
history, and characteristics of the inmate; (3) the likelihood that the
inmate will participate in criminal activities if released; (4) the inmate’s
current age and his or her age at the time of sentencing; (5) the danger, if
any, the inmate poses to the public or himself or herself if released; (6) the
length of sentence imposed and the amount of time left to serve on the
sentence; (7) appropriateness of the release plan; and (8) whether the
inmate’s condition can be remedied by an organ transplant.

      The Clinical Guidelines also contain medical criteria for “an
appropriate request [that] would encompass extraordinary and
compelling circumstances entailing the inmate’s medical conditioning
which the court was not aware of or foreseen during the time of
sentencing.” The medical criteria include:

   	 a terminal illness, with a life expectancy of 1 year or less;

   	 a progressive debilitating medical condition that seriously limits an
      individual’s daily activities and that cannot be stabilized by either
      medication or other medical procedures;

   	 a severe, permanent cognitive condition that significantly impairs
      physical or mental function and will not improve with treatment; and

   	 advanced physically limiting factors.


U.S. Department of Justice                                               18
Office of the Inspector General
Evaluation and Inspections Division
However, the Clinical Guidelines do not provide any examples of
debilitating medical conditions, such as those provided in the training
material discussed above, and do not address non-medical requests for
compassionate release. In addition, only 2 of 20 (10 percent) institution
staff we interviewed referred to the Clinical Guidelines as “guidance” for
reviewing compassionate release requests. Also, when we asked
Wardens in our questionnaire to describe the available resources for
considering medical requests for compassionate release, only 3 of the
100 (3 percent) who responded referenced the BOP’s Clinical
Guidelines.25 Furthermore, when we requested the Clinical Guidelines
from the BOP’s Central Office, we were told that the BOP does not have
Clinical Guidelines for compassionate release. Subsequently, we
requested and received the Clincial Guidelines from the institution staff
who had told us that they used the Clinical Guidelines to review
compassionate release requests.

       Given the response from the BOP’s Central Office that the Clinical
Guidelines did not exist, even though they did, and the limited number of
staff that told us they used the Guidelines as a resource, we concluded
that the Clinical Guidelines likely are not used by the vast majority of BOP
institution staff when considering compassionate release requests for
medical reasons and that institution staff are generally unaware of them.

The BOP’s Program Statement does not establish what non-medical
circumstances are appropriate for compassionate release consideration.

       Although the BOP’s regulations and Program Statement do not
limit compassionate release requests to medical requests, the BOP has
stated that it routinely denies non-medical requests. As described below,
our review confirmed that the BOP did not approve, from 2006 to 2011,
any non-medical requests for compassionate release despite its legal
authority to do so.

      In December 2006, the BOP sought to formalize this practice by
amending its regulations. It published a proposed rule that would have
changed the title of its compassionate release regulation from
“Compassionate Release” to “Reduction in Sentence for Medical Reasons”
and restricted its authority under 18 U.S.C. §§ 3582(c)(1)(A)(i) and

       25  In response to our questionnaire, 99 of the 100 Wardens referenced multiple
resources that they used when evaluating medical requests for compassionate release.
Aside from the three Wardens who referenced the Clinical Guidelines, the Wardens
reported using resources such as the Program Statement; input from institution, Regional
Office, and Central Office staff; outside sources, such as the USAOs and U.S. Probation
Offices; and inmate records, including medical records and court documents.


U.S. Department of Justice                                                        19
Office of the Inspector General
Evaluation and Inspections Division
4205(g) to two classes of medical cases: (1) where a prisoner is
terminally ill with a life expectancy of less than a year and (2) where a
prisoner has a “profoundly debilitating medical condition” that
“eliminates or severely limits the inmate’s ability to attend to
fundamental bodily functions and personal care needs.” Thus, under the
proposed rule, a non-medical condition no longer would qualify as an
“extraordinary and compelling” reason for seeking a reduction in
sentence. At the time, the BOP explained that the purpose of the
proposed revision was to “more accurately reflect our authority under
these statutes and our current policy.” The BOP further stated in its
proposed rulemaking that the BOP “has received letters and
Administrative Remedy appeals from inmates who mistakenly believe
that we will consider circumstances other than the inmate’s medical
condition for reducing a sentence. Such is not the Bureau’s practice.
We believe this title more accurately describes our criteria and
procedures.” Although the comment period for the proposed revised
regulation ended in February 2007, it appears that the rule remains
pending without any action having been taken on it by the BOP or the
Department.

       Consistent with the BOP’s statement in 2006, we were told by BOP
staff, and our review of BOP training materials confirmed, that the BOP’s
practice was to reject non-medical requests for compassionate release,
despite the fact that Congress did not limit “extraordinary and compelling”
circumstances to only medical conditions and that both the BOP’s current
regulations and its Program Statement provide for consideration of non-
medical compassionate release requests. We found that the BOP did not
approve a single non-medical compassionate release request from 2006
through 2011, although two non-medical requests were forwarded to the
BOP’s Central Office and denied by the BOP Director.

       We were unable to determine how many non-medical requests were
made during this period by inmates but rejected prior to reaching the BOP
Director because, as discussed below, BOP records were not maintained in
a manner that enabled such a review. However, institution staff we
interviewed reported receiving non-medical requests from inmates, and
they provided us with examples of the circumstances involved. For
example, the Chief Social Worker at one institution said the institution
received one to two non-medical requests each year. She said that a
request may involve an inmate who had a child with a medical condition
and who wanted to be able to care for the child. The Health Services
Administrator at the same institution explained that a non-medical
request may include an inmate whose family member was caring for the
inmate’s child but the family member was unable to continue caring for
the child and the inmate was the only other person available, or an inmate

U.S. Department of Justice                                            20
Office of the Inspector General
Evaluation and Inspections Division
who had diminished mental status and did not even know he or she was
being punished and was not at risk of re-offending.

USSC Sentencing Guidelines

       When we asked the BOP’s General Counsel under what
circumstances the BOP would consider a non-medical request, she cited
the circumstances listed in the USSC Sentencing Guidelines. The BOP
Director also told us that BOP staff should be using the USSC
Sentencing Guidelines when considering a request. However, institution
staff we interviewed were either unaware of the Sentencing Guidelines or
did not know that they are authorized to consider inmate requests that
were consistent with the Sentencing Guidelines. For example, we spoke
with an Associate Warden at a medical institution, who was also a voting
member of the institution’s committee that determines if an inmate
request is appropriate for compassionate release. While the Associate
Warden was aware of the Sentencing Guidelines, the Associate Warden
did not follow them in considering requests and instead followed the
BOP’s Program Statement.

       We reviewed the regulations and Program Statement and found
they do not mention the Sentencing Guidelines. We also reviewed the
General Counsel’s “talking points” for presentations to Wardens and
other BOP staff as well as training materials provided by the BOP, both
of which are discussed above, and found that each referenced the
Sentencing Guidelines. However, we believe that the references to the
Sentencing Guidelines in these materials were confusing and did not
clearly state whether BOP personnel were authorized to consider the
circumstances established in the Sentencing Guidelines when evaluating
inmate compassionate release requests, particularly in non-medical
circumstances.

       For example, the “talking points” state, “Do not summarily deny
cases that fall within these [sentencing] guideline parameters but outside
BOP criteria. Denials of these requests should address these issues but
stay within BOP medical criteria.” In addition, training materials for
legal staff stated that the examples cited in the Sentencing Guidelines
“are broader than criteria historically used by the BOP in deciding
whether to make such motions” and that the BOP’s practice was to
consider only the medical condition of the inmate. Similarly, the training
materials for medical staff, social workers, and new Wardens in Federal
Medical Centers included the Sentencing Guidelines as “non-medical
issues to ponder,” but under the heading “extraordinary and compelling”
stated that “the BOP has always narrowly interpreted the statute” and
listed the following as extraordinary and compelling circumstances:

U.S. Department of Justice                                            21
Office of the Inspector General
Evaluation and Inspections Division
          Condition not reasonably foreseen at sentencing, [and] 

          Medical condition terminal within one year, or 

          Medical condition with indeterminate life expectancy but, 

           o	 severely debilitating [and] irreversible cognitive or physical medical
              condition,
           o	 limited or unable to attend to ADLs (activities of daily living).

      While these training materials were created for medical staff, social
workers, and new Wardens in Federal Medical Centers, none of the three
Wardens at the institutions where we conducted interviews, including
two medical institutions, were aware of the possible relationship between
considering “extraordinary and compelling” circumstances and the
Sentencing Guidelines. Additionally, a social worker we interviewed who
chairs the institution’s multi-disciplinary committee that votes to
approve or deny compassionate release requests said she was not that
familiar with the relevant policy statement in the Sentencing Guidelines.

       As stated earlier, we found only two non-medical inmate requests
that were received and reviewed by the BOP Director from 2006 through
2011. In each case, the inmate cited the Sentencing Guidelines as the
basis for the request. In the first case, an inmate requested
compassionate release because the family caregiver of the inmate’s minor
children had died of cancer. The inmate’s request was denied by the
BOP Director because of concerns about whether the inmate would be
“able to sustain the stresses of sole parenting and employment while
remaining crime-free.” In the second case, the inmate requested
compassionate release because of his wife’s deteriorating health and the
medical condition of one of his adult daughters. The inmate’s request
was denied by the BOP Director because the BOP Director found that the
judge was aware at the time of sentencing of the medical conditions of
the inmate’s wife and daughter, that other family members were available
to assist with the care of the wife and daughter, and that the inmate
would be eligible for home confinement in 9 months from the date of
denial of the request.

ODAG Review of Compassionate Release Requests

       The regulations and Program Statement establish the roles for BOP
and USAO officials when reviewing compassionate release requests.
However, we found that the ODAG reviews non-medical requests for
compassionate release as well as medical requests from inmates who are
severely and permanently mentally or physically debilitated but whose
life expectancy is indeterminate or unknown (non-terminal).


U.S. Department of Justice                                                             22
Office of the Inspector General
Evaluation and Inspections Division
      The BOP’s General Counsel explained that the ODAG review of
compassionate release requests stems from a verbal agreement between
the BOP and ODAG that originated during the Department’s
consideration of the BOP’s 2006 draft regulations (discussed above and
below). During our case file review, we found a document entitled,
“ODAG Notification Requirement in BOP Policy.” The document states
that the BOP is required to notify the ODAG of all non-terminal
compassionate release requests that have been approved by the BOP
Director: “Once approved by the Director . . . materials must be
immediately forwarded to the ODAG . . . Further processing in non-
terminal cases will occur two business days after submission to the
ODAG, absent objections or concerns raised by that office to the
Director . . . .” The document also requires the BOP to provide a
quarterly report to the ODAG on all non-terminal compassionate release
requests that were approved.

       The document further states that the requirement that the BOP
notify the ODAG “will be in policy and not in the federal regulation as it
is a high-level, purely internal, execute [sic] branch operating procedure.”
The document further states that placing the ODAG notification “in the
regulations could unnecessarily subject ODAG to judicial requests,
congressional inquiries/demands, and civil liability.” When we
attempted to determine the origin of the document and the processes
that it implemented, we found that no BOP or ODAG official was aware of
the document, including how it originated or who wrote it and approved
the requirements established in the document.

       Based on our case file review, we found that 26 requests for
compassionate release since 2006 that were forwarded to the BOP’s
Central Office for consideration by the BOP Director fell into the two
categories requiring ODAG review, with 24 involving non-terminal
medical requests and 2 involving non-medical requests. For the 24 non-
terminal medical requests, 15 case files contained documentation, such
as an e-mail from ODAG staff or handwritten notes from BOP staff
verifying that the ODAG reviewed the request and had “approved,” or did
“not oppose,” the BOP’s recommendation to approve a request. We found
no information in the remaining nine case files to indicate whether the
ODAG had reviewed the requests, which were ultimately approved by the
BOP Director. For the two non-medical requests forwarded to the BOP
Central office, we found documentation in one of them that the case was
forwarded to the ODAG for review, but we did not find a response. The




U.S. Department of Justice                                              23
Office of the Inspector General
Evaluation and Inspections Division
other file had no information                 Denial of Compassionate Release for
as to whether the ODAG had                        Inmate in Vegetative State
reviewed the request, and we
                                              In 2006, the BOP received a medical
found that the BOP Director               request for compassionate release on behalf of
had denied the request.26                 an inmate who had suffered a “massive
                                          stroke.” The inmate was in a near vegetative
       A Senior Counsel to the            state but his medical condition was not
Deputy Attorney General said              considered terminal. BOP records state that
                                          staff fed and provided medication to the
that since she began reviewing            inmate through a feeding tube, turned and
requests in 2011, the ODAG                repositioned the inmate every 2 hours,
has not objected to any BOP               administered toileting, and bathed the inmate
recommendations. However,                 two to three times a week and as needed.
the Senior Counsel also said
                                              The inmate was serving a life sentence for
that there is no protocol for             distributing cocaine and conspiring to
those circumstances where                 distribute cocaine and heroin. The inmate had
there is a disagreement                   prior convictions for theft and failure to
between the ODAG and the                  appear, possession with intent to distribute
BOP. The BOP’s General                    cocaine, and common law assault.
Counsel said there has been                   The BOP Director recommended approval
only one disagreement between             of the request “due to [the inmate’s] totally
the ODAG and the BOP and                  debilitated medical condition and near-
that case involved a request in           vegetative condition with no hope of recovery.”
2006 on behalf of an inmate               Because the inmate’s life expectancy was
                                          indeterminate, the request was referred to the
who had suffered a stroke and             ODAG for review. The ODAG subsequently
was in a vegetative state. We             responded, “Please be advised that ODAG does
reviewed the case file for this           not concur with the proposed release of [the
inmate and found that the                 inmate] at this time.” The inmate is still
BOP Director had approved the             incarcerated at a BOP medical institution and,
                                          according to the BOP, while he is no longer in
request, that the ODAG had                a near-vegetative state, the right side of his
opposed the request, and that             body remains paralyzed (the medical center’s
the request was ultimately                clinical director has concluded that the inmate
denied (see textbox).                     has no hope of recovering any function to the
                                          right side of his body), he cannot speak, and
                                          he needs total assistance with his activities of
Efforts by the BOP to revise its          daily living.
regulations governing
compassionate release have                Source: BOP.
been unsuccessful.

      The BOP’s Program Statement, which contains the same
procedures for reviewing compassionate release requests as those

       26   In response to a working draft of this report, the BOP stated that it withdrew
the first case from ODAG review after further consideration and that the second case
was not forwarded to the ODAG because the BOP did not support the compassionate
release request.


U.S. Department of Justice                                                             24
Office of the Inspector General
Evaluation and Inspections Division
established in the regulations, was last revised in 1998. As noted above,
on December 21, 2006, the BOP published proposed revisions to its
regulations regarding compassionate release. The proposed revisions
would have excluded non-medical conditions from being considered as a
basis for compassionate release and would have limited medical
conditions that were an appropriate basis for compassionate relief to
situations where:

       • 	 the inmate suffers from a terminal illness with a life expectancy of 1 year or
           less, or

       • 	 the inmate has a profoundly debilitating medical condition that may be
           physical or cognitive in nature, is irreversible and cannot be remedied
           through medication or other measures, and has eliminated or severely
           limited the inmate’s ability to attend to fundamental bodily functions and
           personal care needs without substantial assistance from others (including
           personal hygiene and toilet functions, basic nutrition, medical care, and
           maintaining physical safety).

      Following the public comment period, however, the Department
never issued final regulations and the proposed regulations remain
pending. A current Senior Counsel in the ODAG who reviews both non-
terminal and non-medical compassionate release requests told us that
the 2006 proposed rule was developed through a process involving the
ODAG, BOP, Criminal Division, and Office of Legal Policy (OLP). In 2008,
the BOP sent a proposed final rule to OLP that differed significantly from
the proposed rule published in 2006. The BOP’s proposed final rule
broadened, rather than restricted, the circumstances for seeking
reductions in sentences. We were told that OLP had various concerns
about the BOP’s proposed final rule, including:

   1. while the 2006 proposed rule limited BOP consideration of
      compassionate release requests to those based on medical
      circumstances, the 2008 proposed final rule would have permitted
      the BOP to seek reductions of sentence on both medical and non-
      medical grounds;

   2. the 2008 proposed final rule’s description of medical criteria for a
      compassionate release request based on non-terminal medical
      circumstances would have allowed reductions in sentences more
      broadly than the profound debilitation standard reflected in the
      2006 proposed rule; and

   3. the 2008 proposed final rule no longer required USAO concurrence
      with the BOP General Counsel’s decision to pursue a
      compassionate release case and refer the case to the Director.


U.S. Department of Justice                                                            25
Office of the Inspector General
Evaluation and Inspections Division
      In light of OLP’s concerns, the BOP advised OLP in 2011 that it
had decided not to pursue these revisions. A BOP Assistant General
Counsel stated that the Department in 2008 did not like the BOP’s
proposed revisions because it thought the BOP was dramatically
expanding its criteria for compassionate release, even though the BOP
believed it was simply clarifying its medical criteria. We also were told by
the BOP’s Deputy General Counsel that in 2008 the Department
expressed concerns about a perceived expansion of the medical
conditions that might result in a dramatic increase in the number of
inmate requests and releases pursuant to the statutory authority.

       The BOP’s General Counsel told us that the BOP is currently
attempting to revise its compassionate release regulations once again.
The General Counsel also said that after the new regulations are
adopted, the BOP would revise the Program Statement, a process that
would take about 2 years once new regulations are in place due to the
requirement that the BOP negotiate changes to the Program Statement
with its union.27 Several officials from the BOP Central Office and the
ODAG told us that the BOP is separately drafting a new guidance
memorandum for medical institutions that will expand the
compassionate release program by making inmates with a life expectancy
of up to 18 months eligible for consideration. The new memorandum is
also intended to assist staff who review compassionate release requests
in understanding what level of functioning is sufficiently “extraordinary
and compelling” for inmates with debilitating medical conditions to be
considered for release. The BOP did not provide the OIG with a copy of
the memorandum under consideration and could not tell us when it
would be finalized.

       We believe that revised regulations, and subsequently a revised
Program Statement, would benefit the BOP’s management of its
compassionate release program. Specifically, regulations and a Program
Statement that accurately reflect the BOP’s criteria for determining
eligible medical and non-medical requests would provide all BOP staff
clear and comprehensive standards for understanding what
“extraordinary and compelling” circumstances warrant consideration for
compassionate release. In addition, while the BOP did not provide the
OIG with a copy of this new guidance under consideration, and did not
know when the changes would be finalized, we believe that the new
guidance described to us would result in cost savings for the BOP, as
well as alleviate its population management difficulties by enabling more


       27We are concerned about such a lengthy potential delay in issuing a revised
Program Statement given the lack of guidance in the existing Program Statement.


U.S. Department of Justice                                                        26
Office of the Inspector General
Evaluation and Inspections Division
inmates to be eligible for compassionate release consideration. We
discuss potential cost savings and population management in more
detail later in the report.

Conclusion

       The BOP does not provide the staff of its institutions with adequate
guidance regarding what the appropriate basis is for evaluating a
compassionate release request. As a consequence, we found that
institutions were applying different and inconsistent standards. We
further found that not all institution staff knew the circumstances under
which a request for compassionate release is appropriate because the
BOP’s Program Statement, most commonly used by staff to consider a
request for compassionate release, does not establish appropriate
medical or non-medical circumstances for consideration. In addition,
supplements created by institution staff do not adequately describe the
circumstances that would warrant favorable consideration for
compassionate release. Because BOP staff primarily use an inadequate
Program Statement that was last revised in 1998 as their only policy
guidance to determine appropriate candidates for the program, we
concluded that requests from potentially eligible inmates may not be
considered favorably at the institution and regional levels and may never
be considered by the BOP Director. The BOP needs to update its
regulations and Program Statement to accurately reflect what would
make both medical and non-medical requests appropriate for
consideration, as well as to include all aspects of the review process,
including that of the ODAG.

The BOP has no timeliness standards for reviewing compassionate
release requests, and timeliness standards for inmate appeals do not
consider the special circumstances of medical compassionate
release requests.

       The BOP’s compassionate release regulations provide that a
request for release based on an inmate’s medical condition “shall [be]
expedite[d] . . . at all levels.” The BOP’s Program Statement directs
institutions to review requests “promptly” and, in the case of medical
requests, indicates that staff should “expedite” such requests. The
Program Statement, however, does not specify a timeframe for reviewing
requests, which we found resulted in BOP staff members interpreting the
Program Statement’s direction regarding timeliness differently.28 In
addition, the process inmates can use to appeal a Warden’s or Regional

       28 On pages 40 to 41, we discuss the BOP’s efforts to track the length of time to
process requests.


U.S. Department of Justice                                                           27
Office of the Inspector General
Evaluation and Inspections Division
Director’s denial of a compassionate release request can take more than
5 months to complete.

The BOP’s Program Statement does not establish timeliness standards
for reviewing requests.

       The BOP’s Program Statement states, “The Warden shall promptly
review a request for consideration,” and, “in the event the basis of the
request is the medical condition of the inmate, staff shall expedite the
request at all levels.” A BOP Assistant General Counsel told us that
institutions are asked to expedite all requests, but case-by-case factors
affect timeliness and deadlines are difficult to impose because of the
numerous factors involved in evaluating requests. A BOP Senior Counsel
stated that there are no timeframes because of the unexpected and
individualized nature of each request.

      Because the BOP does not provide a timeframe, we found various
BOP staff members interpret the Program Statement’s direction regarding
timeliness differently. For example, a Warden stated that the general
expectation at his institution was to process requests in 5 days. An
Associate Warden at another institution stated that her institution had
expectations to process requests in less than 30 days. In response to our
questionnaire, only 33 out of 100 Wardens (33 percent) reported having a
designated timeframe for reviewing requests at their institution. For
those institutions that reported having a timeframe, the timeframe
ranged from 5 to 65 days.

The BOP’s timeliness standards for inmate appeals do not consider the
special circumstances of medical compassionate release requests.

      The BOP’s administrative remedy program allows an inmate to
seek formal review by higher level BOP officials of an issue relating to any
aspect of his or her incarceration. Procedures, including timeliness
standards, for an inmate to seek an appeal are established in the
administrative remedy Program Statement.29 However, we found that the
procedures and timeliness standards do not reference the compassionate
release program or acknowledge the special circumstances of an inmate
requesting compassionate release (particularly those with terminal
medical conditions and limited life expectancies).

     Before an inmate can submit an appeal under the administrative
remedy program, the inmate must first discuss the concern informally

       29 BOP Program Statement 1330.16, Administrative Remedy Program, effective
August 6, 2002.


U.S. Department of Justice                                                     28
Office of the Inspector General
Evaluation and Inspections Division
with institution staff and institution staff must attempt to informally
resolve the inmate’s concern. Although Wardens must establish
procedures for informal resolution of inmate concerns and ensure that
informal resolution is made in an orderly and timely manner, the
Program Statement for the administrative remedy program does not
specify timeliness standards for this informal resolution process.30

       If informal resolution does not resolve an inmate’s concern, an
inmate may submit a formal written administrative remedy request to
the Warden. Once a request is filed, the Warden must respond within 20
calendar days. An inmate that is not satisfied with the Warden’s
response may appeal to the appropriate Regional Director. The Regional
Director must respond within 30 calendar days. Finally, an inmate not
satisfied with the Regional Director’s response may appeal to the BOP’s
General Counsel, which is the final avenue for an administrative appeal.
The General Counsel must respond within 40 calendar days of the date
of the inmate’s appeal.

      As a result, an inmate could wait up to 90 days (not including the
time for the informal resolution process to be concluded and for the
inmate to prepare the submission for each appeal) if the inmate seeks an
appeal at all levels of the review process. However, the administrative
remedy Program Statement allows officials at all levels of the appeal
process to extend their response time if they believe the established
timeliness standards do not provide sufficient time to respond. Thus, a
Warden’s response time may be extended from 20 to 40 days, a Regional
Director’s response time may be extended from 30 to 60 days, and the
General Counsel’s response time may be extended from 40 to 60 days.
As a result, an inmate could wait up to 160 days (or over 5 months) for
completion of the appeal process if the officials at each level of review
extended their time to respond.31 For inmates with terminal medical
conditions and life expectancies of less than 1 year, which we found are
generally the only inmates whose compassionate release requests are
given serious consideration by the BOP, these timeliness standards likely
provide little to no meaningful opportunity to pursue an appeal.

      We found that, in connection with an appeal of a compassionate
release denial, there is little reason for the BOP to mandate an informal

       30 The Program Statement permits a Warden or an Institution’s Administrative
Remedy Coordinator to waive the requirement of the informal resolution process “when
the inmate demonstrates an acceptable reason for bypassing informal resolution.”

       31See pages 40 to 41 for our analysis of BOP administrative remedy data for
inmate appeals to compassionate release decisions.


U.S. Department of Justice                                                           29
Office of the Inspector General
Evaluation and Inspections Division
resolution process at the institution level or to require that the Warden
review an inmate’s appeal, given that the Warden has previously either
denied the compassionate release request or approved it (in which case
denial was by the Regional Director because inmates cannot appeal the
BOP Director’s final decision). While the administrative remedy Program
Statement waives the requirement that the initial appeal be considered at
the institution level in four limited circumstances, a compassionate
release appeal is not listed as one of those circumstances. Additionally,
we found that, in those circumstances where the Regional Director
denied the inmate’s request following approval by the Warden, there is
little reason to provide the Regional Director with a lengthy period of time
to consider the appeal.

Conclusion

       The BOP’s compassionate release Program Statement does not
specify a timeframe for reviewing requests, resulting in BOP staff
members interpreting the Program Statement’s direction regarding
timeliness differently. While the OIG recognizes the complexity and
importance of the compassionate release review process, given the time-
sensitive nature of these requests, particularly for inmates with terminal
medical conditions and limited life expectancies, we concluded that the
BOP must establish timeliness standards for each step in the review
process. We also concluded that the timeframes established in the
administrative remedy Program Statement do not take into account the
special circumstances of compassionate release requests, particularly for
inmates who are terminally ill and have a life expectancy of less than
1 year. We found that the usual timeframes for handling appeals,
including those for denials of inmate requests for compassionate release
are at least in some circumstances, unnecessarily lengthy.

The BOP does not have formal procedures to inform inmates about
the compassionate release program.

       The BOP does not require institution staff to inform inmates about
the compassionate release program. Additionally, we found that few BOP
institutions include information about the compassionate release
program in their institution handbooks.32 We also found that, in the
absence of policy or procedures, methods used to inform inmates about
the compassionate release program vary. We concluded that potentially
appropriate inmates may not know about the compassionate release

       32  BOP institutions are not required to have handbooks. However, most
institutions create handbooks for their inmates and the contents vary, including
whether and what information is included about the compassionate release program.


U.S. Department of Justice                                                      30
Office of the Inspector General
Evaluation and Inspections Division
program and, as a result, inmates who may be strong candidates for
compassionate release never request consideration.

Staff is not required to inform inmates about the program.

       Neither the federal regulations establishing the compassionate
release program nor the BOP’s compassionate release Program Statement
specify how inmates are to be informed about the program.33 BOP
institutions conduct admission and orientation (A&O) programs for new
inmates to provide them with general information regarding institution-
wide regulations, operations, and program opportunities.34 The BOP’s
A&O Program Statement requires that specific program information be
discussed with inmates. We found, however, that the compassionate
release program was not one of the programs that is required to be
discussed during an A&O program.

       Institutions have the discretion to supplement required elements of
the A&O program with local procedures and program information. Staff
members we interviewed at three institutions generally were not aware of
whether the compassionate release program was discussed during their
institutions’ A&O programs. A Medical Officer at one institution said, “It
might be glossed over as it so rarely comes up.” We reviewed the agenda
of the A&O programs at two of the three institutions and found that the
compassionate release program was not included. The third institution
did not provide us with an A&O program agenda. Rather, the institution
provided us with an A&O handbook. We reviewed this A&O handbook
and found that the compassionate release program was briefly
mentioned, but only as a program for early inmate release in the event of
extraordinary and compelling circumstances that could not have been
foreseen by the court at the time of sentencing. It provided no
clarification as to what circumstances would be appropriate to make a
compassionate release request or how to initiate a request. We discuss
institution handbooks further below.




       33   28 C.F.R. § 571.60-.64.

       34  BOP Program Statement 5290.14, Admission and Orientation (A&O) Program.
The Program Statement requires that the A&O program at all BOP institutions include,
at a minimum, all areas identified on the Institution Admission and Orientation
Program Checklist. However, the compassionate release program is not on the
checklist.


U.S. Department of Justice                                                      31
Office of the Inspector General
Evaluation and Inspections Division
Only a few BOP institution handbooks contain information about the
program.

      While not required to do so, most BOP institutions provide a
handbook when an inmate arrives at a designated institution. The
purpose of the handbooks is to provide inmates with general information
regarding the BOP, its programs, and institution rules and regulations
they will encounter while incarcerated. Handbooks are not a specific
guide to the detailed policies of the BOP, nor do they include all
procedures in effect at each BOP institution.

       We found that few institution handbooks included information
about the compassionate release program. We reviewed 111 of 117
handbooks used by BOP institutions and found only 8 (7 percent)
included information regarding compassionate release.35 The handbooks
that included information about the compassionate release program
varied in the amount of information provided. Only two of the eight
handbooks discussed “terminal illness,” and both of those defined a
terminal illness as a life expectancy of 1 year or less. Four of the eight
handbooks said that inmates had to explain their “extraordinary and
compelling circumstances” in making a request. The remaining two
handbooks described compassionate release only as a means to request
“an unscheduled review,” that is, a review in addition to the scheduled
program reviews inmates receive from institution staff who discuss the
inmate’s progress in recommended programs and recommend new
programs.36

       In response to our questionnaire, 12 of 89 Wardens said that their
institutions’ handbooks were the most common method for making
inmates aware of the compassionate release program.37 However, only
4 of the handbooks from those 12 institutions contained information on
the program.38


       35  We reviewed handbooks that were available on the BOP’s website. Six
institutions’ handbooks were not available on the website.

       36   BOP Program Statement 5322.12, Inmate Classification and Program Review.

       37 We received 100 responses to our questionnaire from institution Wardens.
However, in 11 of the 100 responses, Wardens did not rank the most common method
used to inform inmates about the compassionate release program as requested by the
OIG. Therefore, we did not include these 11 responses in our analysis of this question.

       38  We requested, and the BOP provided, the most current handbook for these
institutions to verify that we reviewed the most current version.


U.S. Department of Justice                                                          32
Office of the Inspector General
Evaluation and Inspections Division
In the absence of policy or procedures, methods used to inform inmates
about the program vary.

       In our questionnaire, we asked Wardens to rank the most common
method used to inform inmates about the compassionate release
program from among the following options: (1) institution handbook,
(2) institution A&O program, (3) program review, and (4) other. The most
common response by the Wardens who replied was “other” (see Table 1).

       Table 1: Most Common Method Used to Inform Inmates
              about the Compassionate Release Program
                        Method                            Percentage
        “Other” Method                                        43
        Program Review                                        24
        Institution A&O Program                               20
        Institution Handbook                                  13
       Source: Analysis of OIG questionnaire responses.

       The most common “other” methods identified by the Wardens
included inmates reading the BOP Program Statement in institution law
libraries; discussions with institution staff if an inmate requests
information; word of mouth among the inmates, family members, or
attorneys; information posted on institution bulletin boards; and
information provided on the BOP’s public website. One Warden stated,
“As far as I can tell, we do not advertise this and inmates have to find out
about it on their own.”

       Institution staff we interviewed said that methods to inform
inmates about the program varied and included receiving information
through the medical staff, reading the BOP Program Statement, and
inmate word of mouth. For example, one Case Manager said inmates are
informed by reading the Program Statement in library services, by
hearing about it from other inmates, and by asking the unit team. The
Director of Nursing at a medical facility said a physician at the
institution usually was the person who informed inmates about the
program, but that when inmates approached staff about the program,
the inmates’ understanding of the program was sometimes wrong. At
another medical facility, a Case Manager told us that a doctor or social
worker may approach an inmate initially to explain the compassionate
release program. However, a doctor at this same medical facility said a
social worker would inform the inmate about the program, while a social
worker said the medical team would inform the inmate about the
program.



U.S. Department of Justice                                              33
Office of the Inspector General
Evaluation and Inspections Division
Conclusion

      The BOP does not have formal or standardized procedures to
inform inmates about the compassionate release program. Staff is not
required to inform inmates about the program. We found that the
methods used to inform inmates about the program are informal and
vary by institution. As a result, potentially eligible inmates may not
know about the compassionate release program.

The BOP does not have a system to track all compassionate release
requests, the timeliness of the review process, or whether decisions
made by institution and Regional Office staff are consistent with
each other or with BOP policy.

      The BOP does not require its institutions to track the number of
compassionate release requests. The BOP’s Central Office informally
tracks only those inmate requests that have been forwarded to the
Central Office for review by the BOP Director after they have been
approved by both a Warden and a Regional Director. Therefore, the BOP
does not know the total number of inmate requests for compassionate
release. Also, the BOP does not track the timeliness of institutions or
Regional Offices in reviewing requests. As a result, the BOP cannot
determine how long the review process takes and where, if any, delays
occur in the process. In addition, the BOP cannot determine whether
decisions made by institution and Regional Office staff are consistent
with each other or with BOP policy.

The BOP does not have a system to track all compassionate release
requests.

      From 2006 through 2011, the BOP Director considered 211
compassionate release requests that had been approved by a Warden
and a Regional Director.39 Of the 208 requests we reviewed, we found
that 206 requests were for medical reasons and 2 requests were for non-
medical reasons. The BOP Director approved 142 (68 percent) of the
requests and denied 38 (18 percent). See Appendix V for the reasons the
BOP Director approved or denied these requests. In 28 cases

       39  The BOP provided the OIG with 212 case files requesting compassionate
release that the BOP’s Office of General Counsel received from 2006 through 2011.
However, one was a duplicate case file for an inmate’s approved request. We reviewed
208 of those case files. We did not review the case files for three inmates because they
had not received a decision from the BOP Director. In one of those cases, the inmate
had her sentence vacated by the court, one withdrew his request, and one had his case
referred for a “criminal matter.”


U.S. Department of Justice                                                           34
Office of the Inspector General
Evaluation and Inspections Division
(13 percent), the inmates died before a decision was made by the BOP
Director.

       However, the 211 requests do not represent all compassionate
release requests made by inmates during this period. Inmate requests
are tracked by the BOP only after a request is approved by both the
Warden and the Regional Director, and is received by the BOP’s Central
Office. Also, we found that institutions do not consistently track inmate
requests for compassionate release. As a result, the number of
compassionate release requests made by inmates during this period
cannot be determined.

Inmate requests are tracked at the BOP’s Central Office only after the
Warden and Regional Director have approved a request.

      We found that the BOP does not know the total number of requests
inmates make because the BOP does not track requests denied by
Wardens or Regional Directors and does not maintain a centralized
system to track all requests. The only requests that the BOP can
account for are those that are approved by the Warden and Regional
Director and forwarded to the BOP’s Central Office for review by the
General Counsel and the BOP Director. Requests received by the BOP’s
Central Office are tracked by the BOP’s Office of General Counsel. An
Assistant General Counsel told us that there is no way for the Office of
General Counsel to capture data at the Warden or Regional Director level
because these requests are not tracked at those levels. The BOP’s
Deputy General Counsel said the only data on the number of denials by
Wardens or Regional Directors comes from the BOP’s administrative
remedy procedure, which reflects only denials that are appealed.

       The BOP’s compassionate release Program Statement does not
require institution or Central Office staff to track compassionate release
requests made by inmates. Nevertheless, we found that some
institutions do track inmate requests. In our questionnaire to Wardens,
we asked whether inmate requests for compassionate release were
tracked. Forty-seven of the 98 Wardens who responded (48 percent) said
requests were tracked.40 The Wardens who indicated that their
institutions tracked requests stated that it was done through different
methods, for example: (1) through a logbook, (2) through a local
electronic recording system, or (3) in the inmate’s central file.




       40   Two Wardens did not respond to this question.


U.S. Department of Justice                                               35
Office of the Inspector General
Evaluation and Inspections Division
       At two of the three institutions where we conducted interviews the
staff members who oversaw compassionate release requests tracked and
documented the request process for each inmate and where they were in
the review process. The third institution did not have a method in place
to track compassionate release requests. In addition, only two of the six
Regional Directors’ offices tracked inmate requests that they received
from institutions. One Regional Director provided the OIG with a
spreadsheet indicating the number of compassionate release requests his
office received from institutions from 2006 through 2011, as well as the
number of requests that were approved by the Regional Director and
forwarded to the BOP’s Central Office for review. A second Regional
Director also provided the OIG with a spreadsheet of requests received
from institutions in 2011. However, we found that data tracked by the
two Regional Offices varied in consistency and was not complete. For
example, while one Regional Office tracked the final disposition of each
request, the other Regional Office did not. In addition, dates indicating
movement of the request through the review process were not complete.

       We were told that while the BOP case management system,
SENTRY, has a code specifically for compassionate release, it is not used
to account for or track requests but just to identify inmates who are
actually released on that basis.41 We reviewed a report generated from
the SENTRY database that the BOP’s Office of General Counsel told us
identified inmates who had been released through the compassionate
release program. The report identified 27 inmates as having been
released from BOP custody between 2006 through 2011 under the
compassionate release program. However, as stated above, our case file
review found that the BOP Director approved 142 inmates during that
period for compassionate release. In addition, only 15 of the 27 inmates
identified in the SENTRY report were among the 142 inmates that we
determined had received compassionate release.42 Moreover, institution
staff members we interviewed were not aware of the SENTRY tracking
code or its purpose. The BOP reported that it had not taken any action
to direct the use of the SENTRY code for compassionate release, but had




       41  SENTRY is the BOP’s primary mission support database. The system
collects, maintains, and tracks critical inmate information, including inmate location,
medical history, behavior history, and release data. Inmate deaths are also entered into
SENTRY, but there is no code to determine if deceased inmates were awaiting
compassionate release consideration.

       42We confirmed that the remaining 12 inmates were not released pursuant to
compassionate release.


U.S. Department of Justice                                                          36
Office of the Inspector General
Evaluation and Inspections Division
alerted staff at the BOP’s Designation and Sentence Computation Center
to the issue.43

The number of requests denied by Wardens and Regional Directors may be
considerable.

       Given the absence of a system to track inmate requests for
compassionate release, neither the BOP nor the OIG can determine how
many inmates submitted requests during the period covered by our
review. An Assistant General Counsel told us that the BOP Central
Office could determine the total number of requests by asking the
institutions how many they received, but the Central Office has never
done so. The questionnaire we distributed to Wardens asked them to
approximate the number of compassionate release requests that inmates
submitted in 2010 and 2011. In addition, we reviewed administrative
remedy data to determine how many inmates appealed Warden or
Regional Director decisions denying compassionate release requests.44
Based on this analysis, we found the number of requests that were
denied by the Warden or Regional Director, and therefore were never
considered by the BOP Director, may be considerable.

      Institution Estimates. In an effort to learn the approximate
number of requests for compassionate release each institution has
processed, the OIG asked Wardens in a questionnaire to estimate the
number of requests their institution received in 2010 and 2011. In
response, the Wardens reported roughly 618 requests in 2010 and 2011,
including 33 requests for non-medical reasons. Our review of
compassionate release case files found that only 64 requests were
considered by the BOP Director in 2010 and 2011, including 2 non-
medical requests in 2011.45 While the Wardens’ responses to the OIG

       43  On March 15, 2012, the BOP’s Chief of Sentence Computation sent an e-mail
to the Designation and Sentence Computation Center staff reminding them that when
they receive a sentence reduction that was completed based upon the BOP’s authority
under 18 U.S.C. § 3582(c)(1)(A), the “Basis for Change Code,” “81-3582 BOP MOTION,
or 82-3582 LOWERED SENTENCE RANGE - BUREAU OF PRISONS” should be used.

       44 The administrative remedy program allows an inmate to seek formal review of
an issue relating to any aspect of his or her confinement.

       45  One non-medical request was denied by the Warden and Regional Director,
as well as the National Inmate Appeals Administrator (Office of General Counsel)
through the BOP’s administrative remedy program. After the inmate filed a lawsuit
against the BOP questioning the BOP’s discretion to consider compassionate release
requests, the Director agreed to consider the inmate’s request. The second non-medical
request was approved by the Warden, but the Regional Director did not provide a
                                                                               (Cont’d.)
U.S. Department of Justice                                                          37
Office of the Inspector General
Evaluation and Inspections Division
were rough estimates, the difference between the estimated number of
inmate requests reviewed by Wardens and the actual number of requests
reviewed by the BOP Director is likely due to many of the requests being
rejected by either the Warden or the Regional Director and never
considered by the BOP Central Office.

      Administrative Remedy. We reviewed the BOP’s administrative
remedy data to determine how many inmates appealed Warden or
Regional Director decisions to deny compassionate release requests.46
Based on our analysis, from 2006 through 2011, 273 inmates appealed
Warden or Regional Director decisions denying a compassionate release
request. Since not all inmates appeal a decision by the Warden or
Regional Director to deny a request, the number of denied requests
would have been higher.

The BOP does not track the length of time taken to process requests.

       The BOP does not track the length of time it takes to approve or
deny requests for compassionate release, in part, because the BOP has
not established a formal method for initiating the review process. As a
result, neither the OIG nor the BOP can assess the timeliness of the
review process. We learned that 28 of the 208 (13 percent) inmates
whose requests were approved by both a Warden and Regional Director
during the period of our review died before the BOP Director made a
decision on the request.47

      In our review of case files, we were unable to determine a
consistent point at which the process even began. An Assistant General
Counsel said that start dates are hard to define because a case may have
been under discussion weeks before anything is written about it.
Another Assistant General Counsel stated that the request process is
informal and there is no prescribed form to initiate the process. She also

recommendation to approve or deny. Rather, the Regional Director forwarded the
request to the BOP’s Central Office for consideration. The BOP Director denied both
requests.

       46  We reviewed appeals filed by inmates under the BOP’s administrative remedy
program using a BP-10 form (for those requests denied by the Warden) or a BP-11 form
(for those requests denied by the Regional Director) for 2006 through 2011. We did not
request data on the BP-9 form (appeals to the Warden) because, in the case of
compassionate release, procedures require that the Warden review the inmate’s original
request for compassionate release.

       47 We also found that one inmate died during consideration of the inmate’s
request by a Regional Director.


U.S. Department of Justice                                                            38
Office of the Inspector General
Evaluation and Inspections Division
stated that the request can come from an inmate, a family member, or
BOP staff. Staff at the three institutions where we conducted interviews
also told us that there is no formal method at their institutions for
initiating the request process and that inmates may make a request
verbally or in writing through an “Inmate Request to Staff Member” form
and that requests also may come from a family member or a treating
physician.48

       In our review of case files for inmates whose requests had been
forwarded to the BOP Director for consideration, we were able to
determine an initiation date in only 40 of the 208 cases (19 percent), and
those initiation dates were not consistently supported by a written
request by the inmate or other documentation. We found initiation dates
on Central Office tracking sheets, letters from an inmate’s attorney and,
in one case, in a letter from the court to an inmate who requested
compassionate release directly from the court.49 Without formal and
consistent initiation dates, the OIG was unable to assess the timeliness
of the review process for all cases forwarded to the BOP’s Central Office
from 2006 through 2011. However, of the 40 requests for which we
found an initiation date, 29 were approved and averaged 116 days from
the initiation date at the institution to the date of the BOP Director’s
approval. The 11 requests that were denied averaged 109 days.50

      BOP Central Office and institution staff told us that a number of
factors can delay the processing of a compassionate release request,
including notifying victims; contacting family members; consulting
external medical specialists regarding an inmate’s medical condition;
removing detainers; finding placement for an inmate if released, such as

       48 An “Inmate Request to Staff Member” is a formal BOP document used by
inmates to address written questions, requests, or concerns from any BOP employee.
BOP staff commonly refers to this document as a “Cop-Out.”

       49  The letter from the court stated that the court had received the inmate’s
request for compassionate release consideration and that the court had communicated
with the several individuals at the BOP regarding the request. The BOP informed the
court of the date the process of determining whether the inmate qualified for
compassionate release would begin. The court wrote that the BOP “informed the court
that the process involves multiple determinations and reviews, and therefore generally
takes three to four months.”

       50   The average time to process these requests does not include time taken for
appeals through the BOP’s administrative remedy program. As previously discussed,
an inmate could wait up to 90 days for all levels of review to respond to an appeal prior
to a final administrative decision, with additional time consumed by extensions to
officials’ deadlines for responses and by the inmate’s efforts to prepare the submission
for each level of the process.


U.S. Department of Justice                                                            39
Office of the Inspector General
Evaluation and Inspections Division
a nursing home or extended care facility; verifying information in the
inmate’s release plan through the U.S. Probation Office; gathering
additional information from investigative agencies regarding the inmate’s
offense; or waiting for the opinions of USAOs or the ODAG on the
possible release of the inmate. We found documentation in some case
files to suggest that these factors may have delayed requests, but we
were unable to measure the amount of time attributable to these delays
because dates were not consistently noted in all compassionate release
case files.

       Staff at the three institutions where we conducted interviews were
unable to provide us with estimates of the time it took to process a
compassionate release request at their institutions. For example, one
doctor said he was not sure of a particular timeline for review. Other
institution staff members provided guesses on the timeliness of processing
a request at their institution, ranging from 2 weeks to “pretty fast.”

        Moreover, at each level of the process, we found BOP staff had
concerns regarding the timeliness of processing a request. For example,
a social worker who serves as the review committee chairperson at her
institution said once a request leaves the institution with a
recommendation of approval it may be as long as 4 months before a final
decision is reached. She added that some inmates do not have 4 months
left to live and many of them have died waiting for approval by the BOP
Director. A Warden at one institution where we conducted interviews
said removing a step in the review process, such as the Regional
Director’s review of a request, may result in shortening the review
process by 1 week, which the Warden indicated could be considerable
given the nature of compassionate release requests. A Regional Director
told us that some inmates who request compassionate release die while
still in custody and in some cases that could be due to delays in
processing a request or because the inmate’s illness progressed faster
than anticipated. An Assistant General Counsel said reviewing an
inmate’s request is a long process and that some inmates “go downhill”
very quickly. We also found indications in the case files of concerns
regarding delays in the review process. For example, correspondence
between two Central Office officials about an inmate who died during
consideration said, “Too long. Wonder why so many delays.”

Timeliness of the BOP’s responses to inmate appeals of compassionate
release decisions

       As previously discussed, the BOP’s administrative remedy program
allows an inmate to seek formal review (appeal) by high-level BOP
officials of an issue relating to any aspect of his or her incarceration,

U.S. Department of Justice                                             40
Office of the Inspector General
Evaluation and Inspections Division
including any aspect of a compassionate release request. We reviewed
BOP administrative remedy data from 2006 through 2011 and found that
273 inmates filed a total of 636 appeals regarding issues related to a
request for compassionate release, including 366 appeals to Regional
Directors and 270 appeals to the BOP’s General Counsel.51

      Administrative remedy procedures require that a Regional Director
respond to an inmate’s appeal within 30 calendar days. Based on our
review of BOP administrative remedy data, Regional Directors responded
in 19 days, on average. Specifically, we found that Regional Directors
responded to an inmate’s appeal within 30 calendar days in 306 of 366
(84 percent) cases. However, administrative remedy procedures allow
Regional Directors to extend their response to an inmate’s appeal by 30
days, thereby providing a Regional Director up to 60 days to respond.
We found that a Regional Director exceeded this 60-day response time
for 24 of 366 (6 percent) appeals, including 7 appeals that took a
Regional Director over 100 days to respond. In one case, a Regional
Director took 302 calendar days to respond to an inmate’s appeal,
according to BOP data.

      Furthermore, administrative remedy procedures allow an inmate
not satisfied with a Regional Director’s response to appeal to the BOP’s
General Counsel. The General Counsel must respond within 40 calendar
days of the date of the inmate’s appeal. Based on our review of BOP
administrative remedy data, we found that the General Counsel provided
a response in 40 days, on average. Specifically, we found that the
General Counsel responded within 40 calendar days in 164 of 270
(61 percent) appeals. However, the General Counsel may extend the
response to an inmate’s appeal by 20 days, thereby providing the General
Counsel 60 days to respond. We found that the General Counsel
exceeded the 60-day response time for 64 of 270 (24 percent) appeals,
including 22 appeals that took the General Counsel over 100 days to
respond. In one case, the General Counsel took 303 calendar days to
respond to an inmate’s appeal, according to BOP data.




       51  Of the 273 inmates who appealed an issue relating to his or her
compassionate release request, 163 (60 percent) filed multiple appeals. For example,
one inmate filed 12 appeals from 2010 through 2011 to both a Regional Director (6) and
the General Counsel (6). All of this inmate’s appeals were “Closed” or “Rejected” for a
number of reasons, including that the inmate’s appeal: (1) was not timely, (2) was
repetitive of a previous filing, (3) did not include required paperwork, and (4) was
submitted to the wrong level of review.


U.S. Department of Justice                                                         41
Office of the Inspector General
Evaluation and Inspections Division
The BOP cannot determine whether decisions made by institution and
Regional Office staff are consistent with each other or with BOP policy.

       The BOP does not review whether decisions made by Wardens or
Regional Directors regarding compassionate release requests are
consistent with each other or with the BOP’s Program Statement and the
underlying statutory authority. While the BOP Director must give the
final approval for a compassionate release request, the regulations
provide that the BOP Director reviews a request only after it has been
approved by the Warden and a Regional Director. Thus, if the request is
denied by the Warden of the inmate’s institution or a Regional Director,
the request and the denials are never reviewed by anyone at the BOP’s
headquarters. The BOP Central Office staff told us that the Central
Office became aware of compassionate release denials made by a Warden
or Regional Director only when the inmate appealed the denial through
the BOP’s administrative remedy procedure.

       All BOP Central Office staff we interviewed confirmed that there is
no mechanism in place to review denials by Wardens or Regional
Directors of inmate compassionate release requests to ensure they are
consistent with each other and with BOP policy. Although the BOP’s
Central Office conducts program compliance reviews of the institutions’
correctional programs, these reviews do not assess the compassionate
release program. The reviews seek to, among other things, ensure that
institution staff evaluates the programming needs of inmates and
manages the inmates’ program participation through coordinated
communication, documentation, and accessibility. However, the BOP
guidelines for conducting institution program compliance reviews do not
include the compassionate release program.52 The BOP Central Office
staff said that the BOP relies on training (discussed previously) to ensure
that Wardens make appropriate decisions on compassionate release
requests.

Conclusion

       While we found limited efforts by institutions and regional offices
to track inmate requests, as well as a mechanism within the BOP’s case
management system to identify inmates released through the
compassionate release program, the BOP does not have a system in place
to track all compassionate release requests from the outset of the review
process to its conclusion. As a result, neither the BOP nor the OIG could


       52 Program Review Guidelines, Correctional Programs, Number G5000I.07
(June 3, 2011).


U.S. Department of Justice                                                     42
Office of the Inspector General
Evaluation and Inspections Division
determine the total number of compassionate release requests made by
inmates between 2006 and 2011. In the absence of a system to track all
requests, including the disposition of decisions made on requests at the
institution and regional level, the BOP cannot effectively manage the
compassionate release program.

       In addition, the BOP does not track the time it takes to approve or
deny requests for compassionate release, has not established a formal
method for initiating the review process, and has failed to put in place
timeliness standards for any stage of the review process. As a result,
neither the OIG nor the BOP can assess the timeliness of the review
process. Moreover, we found that inmates have died while awaiting
decisions on their requests. We believe that the BOP must formalize the
initiation of the review process and record an initiation date for each
case. Establishing a formal initiation method will enable the BOP to
analyze the timeliness of each step of the review process to identify
delays and the reasons for them, and to provide a basis for taking
corrective action.

      Finally, we found that the BOP cannot evaluate whether the
decisions by Wardens or Regional Directors to deny requests are
appropriate because the BOP conducts no tracking or oversight of those
decisions. The BOP cannot effectively manage the compassionate release
program if it cannot ensure decisions made by the Wardens or Regional
Directors are appropriate.

Release of inmates through the compassionate release program
provides cost savings for the BOP and helps the BOP with its
growing prison population and significant capacity issues.

       Although BOP officials and institution staff consistently cited cost
savings as a benefit of the compassionate release program, the BOP does
not track cost savings associated with the release of inmates under the
program. As a result, the BOP is unable to support the potential cost
savings from expanding the compassionate release program that it
reported to Congress in its FY 2013 budget submission. Nevertheless, it
is self-evident that the release from BOP custody of an inmate with a
serious or terminal medical condition results in cost savings for the
BOP.53 Perhaps even more significantly, the release of such an inmate
provides the BOP with an additional bed space which, given the serious

       53  We recognize that, depending upon the nature of the medical condition and
the financial and health insurance circumstances of the inmate, in at least some
situations the inmate’s release may result in additional health care costs to other
government programs, such as Medicare or Medicaid.


U.S. Department of Justice                                                        43
Office of the Inspector General
Evaluation and Inspections Division
population management challenges facing the BOP, is an important non-
monetary benefit. We concluded that the BOP could realize additional
cost savings, as well as receive assistance in addressing its population
management difficulties, from appropriately expanding the use of the
compassionate release program. In the sections below, we discuss the
limitations of BOP cost data and the potential for documenting cost
savings if those limitations are addressed.

The BOP does not track costs that could be or are saved through the
program.

      The BOP does not track marginal daily costs for incarcerated
inmates who are receiving medical care, nor does it track costs related to
the care and confinement of inmates diagnosed with a terminal illness or
inmates with severely debilitating medical conditions. We also found
during this review that the BOP does not track cost data for either the
treatment of specific medical conditions or the continuing custody of
inmates who may be eligible for compassionate release.

      The OIG requested the direct medical care costs incurred by the
BOP to house an inmate, including the cost of feeding, clothing, and
providing medical care for an inmate. The BOP was unable to provide
the information because it does not maintain that data and instead
provided the OIG with what is referred to as the “daily medical per
capita” costs for all inmates.54

       Because the BOP does not track costs related to the specific care
and confinement of inmates diagnosed with terminal illnesses, or
inmates with severely debilitating medical conditions, or other
circumstances that would warrant consideration for compassionate
release, the OIG was unable to calculate costs associated with housing
inmates who may be candidates for compassionate release with an
acceptable degree of accuracy. In addition, we believe the “daily medical
per capita” costs understate the cost of maintaining the inmates that
could be potentially considered for this program because the per capita
costs include the cost of treating inmates who are receiving basic medical
care, such as preventive care, as well as those who are receiving
extensive medical treatments.



       54  The BOP’s daily medical per capita rate is derived by taking total BOP
Medical Obligations (all expenses charged to the Medical Program Area, including
salaries and operational costs) incurred over a fiscal year divided by the average inmate
population.


U.S. Department of Justice                                                           44
Office of the Inspector General
Evaluation and Inspections Division
       We also found that the BOP had not analyzed potential cost
savings from the release of inmates under the compassionate release
program. Under the BOP’s management of the program, inmates who
have been considered for compassionate release are special circumstance
inmates with a terminal illness or severely debilitated condition. The
care for these inmates is unique and likely very expensive, and must be
identified individually to understand the per inmate cost. The BOP’s
Medical Director said that determining cost savings resulting from the
compassionate release program would require sophisticated analysis and
would be difficult to answer accurately. The BOP’s General Counsel said
there had been no analysis of how much the program has saved through
the release of inmates. She added that determining cost savings was
difficult because each inmate’s circumstances vary.

The BOP would accrue cost savings if it expanded the criteria for
compassionate release.

       What data the BOP does track indicates that the costs of
incarcerating inmates at its medical centers are higher than at its other
institutions, and that these costs are rising. For example, the FY 2011
annual cost for incarcerating an inmate at all levels of incarceration
averaged $28,893, while the annual cost for incarcerating an inmate at a
BOP medical center was $57,962. In addition, the average costs for the
BOP’s medical centers increased by 38 percent from FY 2006 to FY 2011.

       As previously stated, BOP Central Office officials told the OIG that
the BOP is drafting new guidance for medical institutions that would
seek to expand the use of the compassionate release program by
expressly allowing inmates with a life expectancy of up to 18 months to
be considered for release rather than the 12-month limit that many
institutions are currently applying informally. The BOP’s General
Counsel said the new guidance also would assist institution staff in
evaluating inmates with debilitating medical conditions so that staff
understood what level of functioning is appropriate for compassionate
release consideration.

       While the BOP did not provide the OIG with a copy of the new
guidance under consideration, and did not know when the changes
would be finalized, we believe that the new guidance that was described
to us would result in cost savings for the BOP by enabling more inmates
to be eligible for release. For example, if clarifying and expanding the
medical criteria for compassionate release consideration resulted in
releasing 100 inmates with serious medical conditions from the medical



U.S. Department of Justice                                              45
Office of the Inspector General
Evaluation and Inspections Division
referral centers each year, the BOP could potentially realize cost savings
of at least $5.8 million annually.55 As previously stated, only 24 inmates
are, on average, released each year through the compassionate release
program.56 Cost savings to the BOP can be determined with greater
accuracy only if the BOP improves its collection and analysis of costs
associated with incarcerating and providing medical care to those
inmates appropriate for compassionate release.

The BOP does not have the data to support the potential savings from
expanding the compassionate release program that it reported to
Congress.

      The Department’s FY 2013 budget request identified $3.2 million
in savings to be achieved by expanding the BOP’s compassionate release
program. Further, the Department’s FY 2013 Performance Budget
Congressional Submission stated that “by amending current
administratively established policies, the BOP could release more
inmates in FY 2013” by expanding the BOP’s compassionate release
program.57

       In response to the working draft of this report, the BOP stated that
the basis for the estimated cost savings of $3.2 million proposed in the
FY 2013 President’s Budget was a scenario the BOP developed when
contemplating expanding the compassionate release program to inmates
in medical centers who had served at least 67 percent of their sentences,
were convicted of non‐violent and non‐sex offenses, and had no violence
within the past 5 years. The BOP stated that it estimated that expanding
its use of compassionate release in this way could result in $3.2 million
in cost savings, based on an average marginal cost for the number of
inmates that met those criteria.

       55  The cost savings calculations are based on “Average Daily/Annual Per Capita
Rates (with support costs)” provided by the BOP for FY 2007 through FY 2011;
specifically, the annual cost of $57,962 for incarcerating an inmate at a BOP medical
referral center in FY 2011.

       56 According to data from the Bureau of Justice Statistics (BJS), an average of
322 inmates died per year in BOP custody from 2001 to 2009 from an illness.
U.S. Department of Justice, Office of Justice Programs, Bureau of Justice Statistics,
Prison and Jail Deaths in Custody, 2000–2009 – Statistical Tables, NCJ236219
(December 2011). According to the BJS, with the exception of AIDS-related deaths, the
BOP does not distinguish illness deaths by a specific cause of death, such as cancer or
other diseases.

       57U.S. Department of Justice, Federal Prison System, FY 2013 Performance
Budget Congressional Submission, Salaries and Expenses.


U.S. Department of Justice                                                          46
Office of the Inspector General
Evaluation and Inspections Division
       We requested the BOP provide us with all documents related to its
plan to expand the compassionate release program and the data and
documentation supporting its FY 2013 Performance Budget
Submission.58 The BOP was unable to provide any documents related to
its plan to expand the compassionate release program. Further, the BOP
told the OIG that the criteria used for calculating potential cost savings
was the same for all BOP programs and there was not one specifically
developed for the compassionate release program. A Central Office
official said she was not aware of any efforts to expand the
compassionate release program. She added, “The program is the same
as it’s always been.”

Releasing eligible inmates through the compassionate release program
assists the BOP with managing its growing inmate population and
significant capacity issues.

       We found that the compassionate release program can help the
BOP in managing its growing prison population and its significant
capacity issues. In FY 2006, there were 192,584 inmates in BOP
custody. As of October 2012, the BOP reported 218,936 inmates in its
custody, an increase of nearly 14 percent.59 The Department has
identified the BOP’s increasingly severe prison capacity issues as a
programmatic material weakness in every Performance and
Accountability Report it has issued since 2006. Despite having identified
prison capacity as a programmatic material weakness for 7 consecutive
years, according to the Government Accountability Office, the BOP’s
prisons have gone from being 36 percent over rated capacity in FY 2006



       58  On March 6, 2012, as part of an initial data and information request, the OIG
requested all documents related to the BOP’s plan to expand the compassionate release
program and the data and documentation supporting its FY 2013 Performance Budget
Submission. During the course of our fieldwork, the BOP was unable to provide any
documents related to its plan to expand the compassionate release program. On
April 18, 2013, in response to our draft report and after the OIG had completed its
review, the BOP provided one-page summaries of possible scenarios to expand the
compassionate release program; pages from charts examining cost-savings options,
including pages that describe possible expansion of the compassionate release program;
and other working drafts of documents. While these documents provided more specific
data, as well as additional context into possible scenarios to expand the compassionate
release program, we found no documentation that supports that any scenario was
actually implemented.

       59U.S. Department of Justice, Office of the Inspector General, “Top
Management and Performance Challenges in the Department of Justice – 2012,”
November 7, 2012.


U.S. Department of Justice                                                          47
Office of the Inspector General
Evaluation and Inspections Division
to being 39 percent over rated capacity in FY 2011. Moreover, the BOP
projects a 15-percent increase in its inmate population by 2020.60

       While the number of inmates who are appropriate for
compassionate release is small in comparison to the BOP’s overall prison
population, we believe that the serious capacity challenges facing the
BOP require its leadership to effectively manage each and every one of its
programs that can assist in prison population management, particularly
in this instance with a program that Congress has expressly authorized.
This opinion was shared by officials and institution staff we interviewed
who cited population control as a benefit of the compassionate release
program. For example, the BOP Director said the release of even one
more inmate would be beneficial in managing the BOP’s population.

       The OIG could not determine how many inmates might have been
appropriate candidates for compassionate release because the BOP does
not track the total number of inmates who request compassionate
release or the conditions of those whose requests were rejected at the
institutional and regional levels. However, at a minimum, inmates with a
viable release plan who have been diagnosed with a terminal illness or a
severely debilitating medical condition and who do not have a history of
violence and are not threats to recidivate would appear to be such
candidates. Those inmates are usually housed in the BOP’s medical
centers, which as of December 2012 housed 7,464 inmates.61 In
interviews with BOP staff, we heard anecdotally that the BOP’s medical
referral centers also are facing capacity issues. For example, the Health
Services Administrator at one medical institution told us that his
institution has had inadequate bed space and has had to have sick
inmates wait 1 to 2 weeks for a bed. He added that he understood wait
times at other medical institutions were even longer. In addition, our
review of a case file for one inmate who died during consideration found
comments from a medical institution staff member that the inmate was
not transferred to the medical institution because there was no bed
space and that several inmates were on a list ahead of the inmate.



       60U.S. Government Accountability Office, Bureau of Prisons: Growing Inmate
Crowding Negatively Affects Inmates, Staff, and Infrastructure, GAO-12-743 (September
2012).

       61 The BOP’s Federal Medical Centers provide a range of medical and mental
health services to inmates. The BOP does not track inmates with terminal illnesses or
severely debilitating medical conditions. Therefore, neither the BOP nor the OIG can
determine how many inmates incarcerated in BOP medical centers would be candidates
for compassionate release consideration.


U.S. Department of Justice                                                        48
Office of the Inspector General
Evaluation and Inspections Division
Conclusion

      We found that effectively managing the compassionate release
program would result in cost savings for the BOP. However, we also
found that the BOP does not track marginal daily costs for incarcerating
medical inmates, nor does it track costs related to the care and
confinement of inmates diagnosed with terminal illnesses or inmates
with severely debilitating medical conditions. Therefore, neither the BOP
nor the OIG is able to determine the amount spent per inmate for the
treatment and care of inmates with terminal illnesses or serious medical
conditions. Having such information would allow the BOP to accurately
determine the amount spent for such inmates in its medical facilities, the
cost of certain medical services for seriously ill and terminal patients,
and the cost savings achieved by releasing inmates through the
compassionate release program. Finally, we found that effectively
managing the compassionate release program also provides the BOP with
a significant non-monetary benefit, namely assistance in managing the
growing inmate population that has resulted in significant capacity
issues for the BOP.

A small percentage of inmates released under the program were
rearrested.

       According to the BOP’s Program Statement, it seeks to operate the
compassionate release program in a manner that protects the public
from undue risk. We attempted to determine recidivism rates within the
compassionate release program by asking the Federal Bureau of
Investigation (FBI) for arrest data for the 142 inmates who had been
approved and released through the compassionate release program from
2006 through 2011.62 We then calculated the recidivism rate by
searching for dates of re-arrest within 3 years of the dates of release
under the program. Based on these parameters, we found that of the
142 inmates approved and released during our 6-year review period,
5 (3.5 percent) were rearrested within a 3-year period.63 By comparison,




       62  We provided the FBI information on all 142 inmates released from 2006
through 2011. In 2011, one inmate was approved for release but died before actually
being released. This inmate was not included in our recidivism analysis.

       63 One inmate was rearrested on three separate occasions after the
compassionate release date. The first two arrests were within 3 years of the inmate’s
release date. The inmate’s third arrest was just over 3 years after the release date.


U.S. Department of Justice                                                          49
Office of the Inspector General
Evaluation and Inspections Division
the general recidivism rate for federal offenders has been estimated to be
41 percent within 3 years after release.64

       According to the data obtained through the FBI for these five
released inmates, the offenses for which they were rearrested included
probation violations, theft, and drug offenses. Below are summaries on
the five inmates who were rearrested, including the circumstances that
led to the inmates’ release and the offenses for which they were
rearrested after release.

       	 Inmate A had been incarcerated after pleading guilty to
          possession with intent to distribute marijuana and being
          sentenced to 60 months of imprisonment, to be followed by
          3 years of supervised release. The inmate thereafter was
          diagnosed with metastatic squamous cell cancer of the lung.
          His condition was determined to be terminal with a life
          expectancy of less than 6 months at the time of his release.
          One year after his release the inmate violated the conditions of
          his supervised release when he was rearrested for using,
          administering, and possessing illegally obtained prescription
          medication and methamphetamine. The inmate admitted that
          he was abusing methamphetamine and illegally obtained
          prescription medication on a daily basis. The inmate was
          returned to the BOP’s custody for an additional 12-month
          sentence.

       	 Inmate B had been incarcerated following convictions for
          attempted distribution of PCP and distribution of heroin and
          having been sentenced to 54 months of imprisonment, to be
          followed by 5 years on supervised release. The inmate
          thereafter was diagnosed with advanced idiopathic restrictive
          cardiomyopathy with congestive heart failure. His condition
          was determined to be terminal with a life expectancy of less
          than 6 months at the time of release. The inmate was
          rearrested 2 years after his release for theft (involving less than
          $100). The FBI data indicates that the charge was thereafter
          voluntarily dismissed by the prosecutor.

       	 Inmate C had been incarcerated after pleading guilty to
          conspiracy to distribute cocaine and cocaine base and being
          sentenced to 121 months of imprisonment, to be followed by


       64 The Federal Bureau of Prisons, Recidivism Among Federal Prisoners Released
in 1987, August 4, 1994.


U.S. Department of Justice                                                       50
Office of the Inspector General
Evaluation and Inspections Division
            5 years on supervised release. The inmate thereafter was
            diagnosed with end-stage HIV/AIDS, insulin-dependent
            diabetes mellitus, retinopathy, peripheral neuropathy, chronic
            renal insufficiency with nephrotic syndrome, and dyslipidemia,
            with an elevation of plasma cholesterol. The inmate’s medical
            condition was considered “grave,” with a “limited life
            expectancy” at the time of release. Twenty months after his
            release, he was arrested for possession of cocaine with intent to
            sell, manufacture, or deliver, and operation of a vehicle with
            unsafe or improper equipment. Forty-one months after his
            release, the inmate was again arrested for trafficking in cocaine
            over 28 grams/less than 150 kilograms, disobeying a stop or
            yield sign, and possession of drug paraphernalia.

       	 Inmate D had been incarcerated after pleading guilty to
          unlawful use of a controlled substance while in possession of a
          firearm and being sentenced to 33 months of imprisonment, to
          be followed by 2 years on supervised release. The inmate
          thereafter was diagnosed with stage IV Hodgkin’s lymphoma.
          The inmate’s condition was considered extremely poor with a
          life expectancy of several months at the time of release. The
          inmate was rearrested 2 months after release for resisting
          arrest.

       	 Inmate E was incarcerated after pleading guilty to possession of
          cocaine base and being sentenced to 108 months of
          imprisonment, to be followed by 2 years on supervised release.65
          The inmate thereafter was diagnosed with metastatic infiltrating
          ductal carcinoma of the breast. The inmate’s life expectancy at
          the time of release was less than 6 months. The inmate was
          rearrested 6 months after release for malicious destruction of
          property (valued at less than $500).

Conclusion

      When considering the impact of the compassionate release
program on public safety, we found the rate of recidivism for inmates
approved and released through compassionate release to be low
compared with the overall rate of recidivism for federal inmates. The OIG
recognizes that releasing inmates through the compassionate release
program could result in some increase in the number of inmates who are

       65 The inmate’s sentence was later modified to 84 months of imprisonment,
according to FBI data.


U.S. Department of Justice                                                         51
Office of the Inspector General
Evaluation and Inspections Division
rearrested after release, particularly if the numbers and types of inmates
released under compassionate release authority are expanded. However,
recidivism data suggests that, given these prisoners’ serious medical
conditions, a well-managed compassionate release program can
significantly minimize the risk to the public from an inmate’s early
release from prison.




U.S. Department of Justice                                             52
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



       We concluded that an effectively managed compassionate release
program would result in cost savings for the BOP, as well as assist the
BOP in managing its continually growing inmate population and the
resulting capacity challenges it is facing. We further found that such a
program would likely have a relatively low rate of recidivism. However,
we found that the existing BOP compassionate release program is poorly
managed and that its inconsistent and ad hoc implementation has likely
resulted in potentially eligible inmates not being considered for release.
It has also likely resulted in terminally ill inmates dying before their
requests for compassionate release were decided. Problems with the
program’s management are concentrated in four areas.

       First, the BOP’s regulations and Program Statement do not
establish appropriate medical and non-medical criteria for
compassionate release consideration and do not adequately define
“extraordinary and compelling” circumstances that might warrant
release. We found institution staff had varying understandings of what
extraordinary and compelling circumstances warrant consideration for
compassionate release. For example, while we were told that the BOP
Central Office will consider compassionate release for an inmate with a
life expectancy of 12 months or less, some institution staff we
interviewed said they will consider an inmate only if the inmate has a life
expectancy of 6 months or less. Further, while the BOP’s regulations
and Program Statement allow for compassionate release based upon
non-medical circumstances, neither provides any guidance for such
situations. Moreover, the BOP recently stated that its practice is to deny
non-medical compassionate release requests, and indeed we found that
the BOP did not approve a single non-medical compassionate release
request during the 6-year period covered by our review. While the BOP
proposed revisions to its compassionate release regulations to clarify the
conditions that qualify for consideration, a final regulation was never
adopted. Consequently, BOP staff continues to decide compassionate
release requests without clear or comprehensive standards.

      Second, the BOP has failed to put in place timeliness standards at
each step of the review process. Instead, Wardens are told simply to
promptly review requests and to expedite reviews of requests for medical
reasons. Not surprisingly, we found that institutions interpret these
general directions differently. Not all institutions have a designated
timeframe for reviewing requests and, for those that do, the timeframes
range from 5 to 65 days.


U.S. Department of Justice                                              53
Office of the Inspector General
Evaluation and Inspections Division
      Third, the BOP does not have procedures to inform inmates about
the compassionate release program. Unlike with many other BOP
programs, institution staff is not required to inform inmates about the
compassionate release program and the methods used by staff that does
inform inmates about the program vary by institution. As a result,
potentially eligible inmates may not know about the compassionate
release program. By making inmates fully aware of the compassionate
release program, whether through institution handbooks or during
required discussions between inmates and staff, the BOP will be able to
increase inmates’ knowledge of the program and provide full and fair
opportunities for those who may be appropriate for consideration.

      Fourth, the BOP does not have a system to track all compassionate
release requests, the timeliness of the review process, or whether
decisions made by institution and regional office staff are consistent with
each other or with BOP policy. As a result, the BOP could not tell us
how many requests for compassionate release were made from 2006
through 2011, how many requests were denied by Wardens and how
many were denied by Regional Directors, or what the reasons were for
those denials. The BOP tracks only inmate requests that have been
approved by both the Warden and Regional Director, and that have been
sent to the Central Office for review by the BOP Director. We found that
some, but not all, institutions and Regional Offices do have their own
systems for tracking inmate requests, but that the methods vary. We
further found that the BOP Central Office makes no effort to ensure that
denial and approval decisions by Wardens and Regional Directors are
consistent across institutions and regions, and with BOP policy. We
believe that the BOP cannot effectively manage the compassionate
release program if it cannot account for the overall number of inmate
requests and how they were resolved.

       The BOP also does not track the time it takes to process requests
and has no formal or standard means of determining the date the review
process begins. Consequently, the BOP cannot monitor its process
effectively. This is especially problematic for inmates with terminal
medical conditions, and we found that 13 percent of inmates whose
requests had been approved for compassionate release by a Warden and
Regional Director died before a decision was made by the BOP Director.
Given the lack of tracking data, we could not assess the timeliness of the
review process. While the OIG recognizes the importance of a careful
review process, given the time-sensitive nature of compassionate release
requests, we believe the BOP should assess the length of time the
process takes and establish timeliness standards for each phase of the
review process. Clear timeliness standards and a formal mechanism for
dating the initiation of the review process will help the BOP determine if

U.S. Department of Justice                                             54
Office of the Inspector General
Evaluation and Inspections Division
delays in the process exist and where to take corrective actions so that
the review process may progress as quickly as possible.

      Further, the BOP does not maintain cost data associated with the
custody and treatment of inmates who may be eligible for compassionate
release. Despite this lack of data, the BOP reported to Congress that it
could save $3.2 million by expanding the compassionate release
program. While appropriately expanding the compassionate release
program would inevitably result in medical cost savings, we found that
no analysis has been conducted by the BOP. As a result, neither the
BOP nor the OIG can determine with any precision the costs associated
with providing health care to inmates eligible for compassionate release
or the cost savings that could be achieved by releasing such inmates
under the program.

       Finally, we found the rate of recidivism for inmates approved and
released through the existing compassionate release program to be low
compared with the overall rate for federal inmates released into the
community. While the OIG recognizes that increasing the number of
inmates eligible for compassionate release could result in some increase
in the number of inmates who are rearrested after release, the recidivism
data to date shows that a program that carefully evaluates the risk of
releasing an inmate can substantially reduce the likelihood of re-arrest.

      Below are our recommendations for improving the compassionate
release program.

Recommendations

       To ensure that the BOP is effectively and efficiently managing its
budget and addressing the growing and significant capacity issues at its
institutions:

   1. Consider appropriately expanding the use of the compassionate
      release program as authorized by Congress and as described in the
      BOP’s regulations and Program Statement to cover both medical
      and non-medical conditions for inmates who do not present a
      threat to the community and who present a minimal risk of
      recidivism.

     To ensure policies used to consider requests are complete and
accurate, we recommend that the BOP:

   2. Update written national policies, including its compassionate release
      regulations and Program Statement, to accurately reflect the BOP’s
      criteria for determining eligible medical and non-medical requests.

U.S. Department of Justice                                             55
Office of the Inspector General
Evaluation and Inspections Division
   3. Provide training for BOP staff responsible for reviewing inmate
      requests and applying the criteria for evaluating medical and non-
      medical requests.

     To ensure that requests are processed in a timely manner, we
recommend that the BOP:

   4. Establish timeframes for processing requests at each step of the
      review process, including Warden, Central Office, and external
      agency input and review.

   5. Establish timeframes for handling inmate appeals that take into
      account the time sensitivity of compassionate release requests.

      To ensure inmates are made aware of the compassionate release
program, we recommend that the BOP:

   6. Require that all inmates be informed about the compassionate
      release program, including how to initiate a request and
      circumstances that may qualify as “extraordinary and compelling.”

      To ensure the BOP can account for all requests for compassionate
release, minimize potential delays in the review process, and ensure denial
decisions made by Wardens are appropriate, we recommend that the BOP:

   7. Track each compassionate release request, its status, and final
      disposition.

   8. Establish a procedure to formally document the initiation, including
      the initiation date, for each compassionate release request.

   9. Require that Wardens document the specific reasons for denying
      an inmate’s request for compassionate release.

10.	 Include as part of BOP program compliance reviews an element for 

     reviewing compassionate release determinations made by Wardens. 


      To accurately determine the costs associated with providing health
services to inmates who may be otherwise eligible for compassionate
release and identify potential cost savings, we recommend that the BOP:

11. Collect and assess the costs for providing health services to inmates
    diagnosed with terminal medical conditions and a limited life
    expectancy, and severely debilitating medical conditions.




U.S. Department of Justice                                               56
Office of the Inspector General
Evaluation and Inspections Division
                   APPENDIX I: LEGISLATIVE HISTORY 



Sentencing Reform Act of 1984 (Pub. L. No. 98-473, 18 U.S.C.
§§ 3551-3556)

       The Sentencing Reform Act of 1984, Title II of the Comprehensive
Crime Control Act of 1984, was passed by Congress and signed into law
by the President on October 12, 1984. The legislation permits an inmate
to petition for a sentence reduction for extraordinary and compelling
reasons. According to the Sentencing Reform Act of 1984, a court can
reduce a prisoner’s imprisonment term if the BOP files a motion based on
“extraordinary and compelling” reasons.

      Under 18 U.S.C. § 3582(c)(1)(A), a sentencing court, on motion of
the BOP Director, may reduce the term of imprisonment of an inmate
sentenced under the Comprehensive Crime Control Act of 1984. The BOP
oversees this program in accordance with 18 U.S.C. § 3582(c)(1)(A) and
the procedures set forth in 28 C.F.R. § 571.60-.64.

       Under 18 U.S.C. § 4205(g), a sentencing court, on motion of the
BOP, may make an inmate with a minimum term sentence immediately
eligible for parole by reducing the minimum term of the sentence to time
served. Effective November 1, 1987, 18 U.S.C. § 4205(g) was repealed,
but it remains the controlling law for inmates whose offenses occurred
prior to that date. For inmates whose offenses occurred on or after
November 1, 1987, the applicable statute is 18 U.S.C. § 3582(c)(1)(A).
Procedures for compassionate release of an inmate under either
provision are contained in 28 C.F.R. part 571, subpart G.

28 C.F.R. § 571.60-.64

       Subsections 571.60-.64 of Title 28 of the C.F.R. establish the
purpose and scope, initiation of request, approval of request, denial of
request, and ineligible offenders for compassionate release (procedures
for the implementation of 18 U.S.C. §§ 3582(c)(1)(A) and 4205(g)):

   	 § 571.60 (Purpose and scope): Under 18 U.S.C. § 4205(g), a
      sentencing court, on motion of the BOP, may make an inmate with
      a minimum term sentence immediately eligible for parole by
      reducing the minimum term of the sentence to time served. Under
      18 U.S.C. § 3582(c)(1)(A), a sentencing court, on motion of the BOP
      Director, may reduce the term of imprisonment of an inmate
      sentenced under the Comprehensive Crime Control Act of 1984.
      The BOP uses 18 U.S.C. §§ 4205(g) and 3582(c)(1)(A) in


U.S. Department of Justice                                                 57
Office of the Inspector General
Evaluation and Inspections Division
       particularly extraordinary or compelling circumstances that could
       not reasonably have been foreseen by the court at the time of
       sentencing.

   	 § 571.61 (Initiation of request – extraordinary or compelling
      circumstances): A request for a motion under 18 U.S.C. § 4205(g)
      or § 3582(c)(1)(A) shall be submitted to the Warden. Ordinarily,
      the request shall be in writing and submitted by the inmate. An
      inmate may initiate a request for consideration under 18 U.S.C.
      § 4205(g) or § 3582(c)(1)(A) only when there are particularly
      extraordinary or compelling circumstances that could not
      reasonably have been foreseen by the court at the time of
      sentencing. The inmate’s request shall at a minimum contain the
      following information:

       1. The extraordinary or compelling circumstances that the 

          inmate believes warrant consideration. 


       2. Proposed release plans, including where the inmate will 

          reside, how the inmate will support him- or herself, and, 

          if the basis for the request involves the inmate’s health, 

          information on where the inmate will receive medical 

          treatment and how the inmate will pay for such 

          treatment. 


       The BOP processes a request made by another person on behalf of
       an inmate in the same manner as an inmate’s request. Staff shall
       refer a request received at the Central Office or at a Regional Office
       to the Warden of the institution where the inmate is confined.

   	 § 571.62 (Approval of request): The BOP makes a motion under 18
      U.S.C. § 4205(g) or § 3582(c)(1)(A) only after the request has been
      reviewed by the Warden, the Regional Director, the General
      Counsel, and either the Medical Director for medical referrals or
      the Assistant Director, Correctional Programs Division, for non-
      medical referrals, and with the approval of the BOP Director. The
      Warden shall promptly review a request for consideration under 18
      U.S.C. § 4205(g) or § 3582(c)(1)(A). If the Warden, upon an
      investigation of the request determines that the request warrants
      approval, the Warden shall refer the matter in writing with a
      recommendation to the Regional Director. If the Regional Director
      determines that the request warrants approval, the Regional
      Director shall prepare a written recommendation and refer the
      matter to the Office of General Counsel. If the General Counsel
      determines that the request warrants approval, the General


U.S. Department of Justice                                                 58
Office of the Inspector General
Evaluation and Inspections Division
       Counsel shall solicit the opinion of either the Medical Director or
       the Assistant Director, Correctional Programs Division, depending
       upon the nature of the basis of the request. With this opinion, the
       General Counsel shall forward the entire matter to the BOP
       Director for final decision. If the BOP Director grants a request
       under 18 U.S.C. § 4205(g), the Director will contact the
       U.S. Attorney in the district in which the inmate was sentenced
       regarding filing a motion in the sentencing court on behalf of the
       BOP to reduce the minimum term of the inmate’s sentence to time
       served. If the BOP Director grants a request under 18 U.S.C.
       § 3582(c)(1)(A), the Director will contact the U.S. Attorney in the
       district in which the inmate was sentenced regarding filing a
       motion in the sentencing court on behalf of the BOP Director to
       reduce the inmate’s term of imprisonment to time served. Upon
       receipt of notice that the sentencing court has entered an order
       granting the motion under 18 U.S.C. § 4205(g), the Warden of the
       institution where the inmate is confined shall schedule the inmate
       for hearing on the earliest Parole Commission docket. Upon
       receipt of notice that the sentencing court has entered an order
       granting the motion under 18 U.S.C. § 3582(c)(1)(A), the Warden of
       the institution where the inmate is confined shall release the
       inmate forthwith. In the event the basis of the request is the
       medical condition of the inmate, staff shall expedite the request at
       all levels.

   	 § 571.63 (Denial of request): When an inmate’s request is denied
      by the Warden or Regional Director, the official shall provide the
      inmate with a written notice and statement of reasons for the
      denial. The inmate may appeal the denial through the
      administrative remedy procedure (28 C.F.R. part 542, subpart B).
      When an inmate’s request for consideration under 18 U.S.C.
      § 4205(g) or § 3582(c)(1)(A) is denied by the Director or the General
      Counsel, the General Counsel shall provide the inmate with a
      written notice and statement of reasons for the denial. This denial
      constitutes a final administrative decision, and an inmate may not
      appeal the denial through the administrative remedy procedure.

   	 § 571.64 (Ineligible offenders): The BOP has no authority to
      initiate a request under 18 U.S.C. § 4205(g) or § 3582(c)(1)(A) on
      behalf of state prisoners housed in BOP facilities or D.C. Code
      offenders confined in federal institutions. The BOP cannot initiate
      such a motion on behalf of federal offenders who committed their
      offenses prior to November 1, 1987, and received non-parolable
      sentences.



U.S. Department of Justice                                               59
Office of the Inspector General
Evaluation and Inspections Division
U.S. Sentencing Commission Guidelines

       Effective November 1, 2007, and pursuant to 28 U.S.C. § 994(p),
the U.S. Sentencing Commission (USSC) amended he sentencing
guidelines to describe what should be considered extraordinary and
compelling reasons for sentence reduction (compassionate release),
including criteria to be applied. The USSC guidelines provide four
examples of circumstances that, provided the defendant is not a danger
to the safety of any other person or to the community, would constitute
“extraordinary and compelling reasons” for purposes of 18 U.S.C.
§ 3582(c)(1)(A). According to the USSC guidelines, extraordinary and
compelling reasons exist when:

       1. The defendant is suffering from a terminal illness.

       2. The defendant is suffering from a permanent physical or
          medical condition, or is experiencing deteriorating physical or
          mental health because of the aging process, that substantially
          diminishes the ability of the defendant to provide self-care and
          for which conventional treatment promises no substantial
          improvement.

       3. The death or incapacitation of the defendant’s only family
          member capable of caring for the defendant’s minor child or
          minor children.

       4. Any other circumstance that the Director of the Bureau of
          Prisons finds to be an extraordinary and compelling reason.

Department Component Policy

BOP Director Memorandum

        On July 22, 1994, the BOP Director issued a memorandum to BOP
executive staff regarding compassionate release requests. The
memorandum indicated that the BOP took a conservative approach to
filing motions for compassionate release, and that the BOP had been
considering for release only those inmates with a terminal illness and a
life expectancy of 6 months or less. The memorandum noted that the
BOP had recently extended this time limit to include those inmates with
a life expectancy of up to 1 year and stated that the time limit was a
general guideline, not a requirement. The memorandum also stated that
there may be cases where an inmate may not have a terminal condition
or limited life expectancy, but has a serious or debilitating medical
condition, and that those circumstances may merit consideration. In


U.S. Department of Justice                                               60
Office of the Inspector General
Evaluation and Inspections Division
addition, the memorandum stated that each case must be judged on an
individual basis, and provided factors for staff to consider when
evaluating cases. Those factors included:

      	 the nature and circumstances of the offense;

      	 the age of the inmate,

      	 the danger, if any, the inmate poses to the public if released,

      	 appropriate release plans, including family or outside resources,

      	 the nature and severity of the inmate’s illness, including whether
         outside medical care will be necessary, and

      	 the length of the inmate’s sentence and the amount of time left
         to serve.

The memorandum stated that the factors listed above were not criteria
that an inmate must meet to be considered for compassionate release.
Rather, the factors were guidelines to be evaluated before staff made a
final decision on an inmate’s request.

BOP Program Statement 5050.46

      The BOP’s Program Statement, Compassionate Release, Procedures
for Implementation of 18 U.S.C. §§ 3582(c)(1)(A) and 4205(g), last revised
on May 19, 1998, establishes policies and procedures for submitting and
reviewing compassionate release requests, and includes processes for
considering both medical and non-medical requests. The Program
Statement includes the purpose and scope of the statutes establishing
compassionate release, as well as the objectives of the program. The
program’s objectives include:

      	 a motion for a modification of a sentence will be made to the
         sentencing court only in particularly extraordinary or compelling
         circumstances that could not reasonably have been foreseen by
         the court at the time of sentencing,

      	 the public will be protected from undue risk by careful review of
         each compassionate release request, and

      	 compassionate release motions will be filed with the sentencing
         judge in accordance with the statutory requirements of 18
         U.S.C. § 3582(c)(1)(A).



U.S. Department of Justice                                                 61
Office of the Inspector General
Evaluation and Inspections Division
       The Program Statement also includes procedures for initiating a
request. Specifically, a request for a motion for compassionate release
shall be submitted by the inmate to the Warden, ordinarily in writing,
only when there are particularly extraordinary and compelling
circumstances that the inmate believes could not reasonably have been
foreseen by the court at the time of sentencing. An inmate must also
provide a proposed release plan when submitting a request. The BOP
processes a request made by a person on behalf of the inmate in the
same manner as an inmate’s request.

      Also, the Program Statement establishes the process for approving
requests. The Program Statement states that the BOP makes a motion
for compassionate release only after review of the request by the Warden,
the Regional Director, the General Counsel, and either the Medical
Director (for medical requests), or the Assistant Director of the
Correctional Programs Division (for non-medical requests). Requests
must be approved by the BOP Director.

       In addition, the Program Statement states that if a request is
denied by the Warden, Regional Director, or General Counsel, the
disapproving official must provide the inmate with written notice and a
statement of reasons for the denial. The inmate may appeal a denial
made by the Warden or Regional Director through the BOP’s
administrative remedy procedure. However, the inmate may not appeal a
denial by the General Counsel as the denial constitutes a final
administrative decision. If the Director denies the inmate’s request, the
inmate is provided a written notice and a statement of reasons for the
denial within 20 workdays after receipt of the referral from the BOP’s
Office of General Counsel. A denial by the Director also constitutes a
final administrative decision and cannot by be appealed by the inmate.

       Finally, the Program Statement clarifies offenders who are
ineligible for compassionate release. The procedures contained in the
Program Statement are the same as those established in 28 C.F.R.
§ 571.61-.64.




U.S. Department of Justice                                              62
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX II: METHODOLOGY OF THE OIG REVIEW 



        We reviewed the BOP’s process to approve or deny inmate requests
for compassionate release. We reviewed federal laws and regulations;
BOP Program Statements; BOP and USAO policies and procedures; and
written correspondence of recommendations between BOP, USAO, and
the Department and component officials. We conducted case file reviews
of all inmates whose requests for compassionate release were approved
or denied by the BOP’s Director, or who died during the BOP’s
consideration of their requests. We also sent a questionnaire to all BOP
Wardens to evaluate the processes and procedures institutions use to
consider inmate requests for compassionate release. In addition, we
interviewed Department officials with the BOP, EOUSA, ODAG, and
USAOs, as well as staff at three BOP institutions. Finally, we conducted
videoconference site visits with three BOP institutions. The following
sections provide additional information on the methodology of our review.

Data Analysis

Case File Review

       We conducted case file reviews of all inmates, from 2006 through
2011, whose request for compassionate release was approved or denied
by the BOP Director, or who died during the BOP’s consideration of their
requests. The BOP provided the OIG with 212 case files for inmates
whose requests were received by the BOP’s Office of General Counsel
after approval by the Wardens and Regional Directors. We reviewed 208
case files in which a decision to approve or deny was made, or the inmate
died before a decision. We received one duplicate case file for an inmate.
In addition, we did not review the case files for three inmates who did not
receive a decision, including one inmate whose sentence was vacated by
the court, one inmate who withdrew the request, and one inmate whose
case was referred for a criminal matter.

       The purpose of our case file review was multi-faceted. First, we
obtained inmate demographic information. Second, we reviewed the
steps of the review process, including which institutions initiated
requests, and attempted to obtain dates for the initiation of a request
and completion of steps throughout the consideration process. These
include the date a request was initiated, dates institution staff received
feedback from outside agencies, and the date the Warden approved the
request. Third, we analyzed documents and BOP correspondence with
institution and Central Office staff, USAOs, and law enforcement



U.S. Department of Justice                                                   63
Office of the Inspector General
Evaluation and Inspections Division
agencies. Finally, we reviewed documents to determine why an inmate’s
request was approved or denied by the BOP Director.

Questionnaire

      We e-mailed a questionnaire to all BOP Wardens. The purpose of
our questionnaire was to evaluate the procedures institutions use to
consider inmate requests for compassionate release.

       Our questionnaire included 10 questions. Specifically, we asked
Wardens about how inmates were made aware of the program; the most
common method inmates use to submit requests; who reviews requests
for compassionate release; the approximate number of requests their
institution received over the past 2 calendar years, including the number
of requests for non-medical reasons; the number of non-medical requests
approved by their institution; and what factors the Wardens consider
during their reviews of requests to make a determination. Further, we
asked Wardens if their institutions had designated timeframes for
reviewing requests, and if so, to specify those timeframes; and whether
their institutions tracks requests. Finally, we asked Wardens to describe
the process they and their staff use to review requests, resources
available to consider requests for medical reasons, and if they had
recommendations to improve the process for considering requests.

       We received 100 responses from institution Wardens. Ten of the
Wardens responded on behalf of multiple institutions within a Federal
Correctional Complex (FCC). An FCC contains multiple institutions with
different missions and security levels located in close proximity to one
another. Because in 10 cases a singular response from a Warden
represented multiple institutions within a FCC, the 100 responses we
received represented 110 of the 117 (94 percent) BOP institutions.

Document Analysis

      We reviewed the laws, regulations, and legislative history of the
compassionate release program. We also reviewed BOP Program
Statements, training materials, correspondence between the BOP’s
Central Office and institutions, and USAO documents. In addition, we
examined BOP internal memoranda, evaluative guidelines, and criteria
for medical requests.




U.S. Department of Justice                                                64
Office of the Inspector General
Evaluation and Inspections Division
Interviews

      Organization/Division                               Position
Office of the Deputy Attorney General
                                     Associate Deputy Attorney General
                                     Senior Counsel to the Deputy Attorney General
Federal Bureau of Prisons
                                     Director
                                     Regional Directors (x6)
                                     Assistant Director, Correctional Programs
                                     Division
                                     Assistant Director and General Counsel
                                     Assistant Director and Medical Director
                                     Senior Deputy General Counsel
BOP Headquarters
                                     Administrator, Correctional Programs Division
                                     Senior Counsel (x2)
                                     Senior Deputy Assistant Director,
                                     Administration Division
                                     Assistant General Counsel (x3)
                                     Chief, Office of Legislative Affairs (x2)
                                     Social Science Research Analyst
                                     Warden
                                     Associate Warden
                                     Case Management Coordinator
FPC Alderson
                                     Unit Manager
                                     Medical Officer
                                     Case Manager
                                     Warden
                                     Associate Warden
                                     Social Worker and Chairperson of the
                                     Reduction in Sentence (Compassionate Release)
FMC Butner
                                     Review Committee
                                     Oncologist and Tumor Board Chairperson
                                     Social Worker
                                     Case Manager
                                     Warden
                                     Associate Warden
                                     Health Services Administrator
                                     Social Worker and Chairperson of
FMC Carswell                         Compassionate Release Review Committee
                                     Director of Nursing
                                     Chief Social Worker
                                     Unit Manager
                                     Case Manager
Executive Office for the United States Attorneys
                                     Counsel for Legal Initiatives
United States Attorneys’ Offices
                                     Criminal Chief, Southern District of Florida
                                     Criminal Chief, Southern District of Texas
                                     Criminal Chief, Eastern District of Michigan
                                     Criminal Chief, Southern District of Iowa
                                     Criminal Chief, Eastern District of Oklahoma


U.S. Department of Justice                                                     65
Office of the Inspector General
Evaluation and Inspections Division
       Organization/Division                              Position
                                      Criminal Chief, Eastern District of Kentucky
                                      Assistant United States Attorney, Western
                                      District of Texas
                                      Assistant United States Attorney, Southern
                                      District of Indiana

Video Teleconferences

       All interviews with BOP institution staff were conducted through
video teleconferencing (VTC). The team conducted VTCs with three
institutions: Federal Prison Camp (FPC) Alderson, Federal Medical
Center (FMC) Butner, and FMC Carswell. We choose FMC Butner and
FMC Carswell because they received the highest number of
compassionate release requests, based on our case file review. FPC
Alderson was randomly selected from 103 institutions that, based on our
case file review, received no requests in 2011.




U.S. Department of Justice                                                           66
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX III: FORMER BOP DIRECTOR MEMORANDUM 





                                                            u.s.   Depanmen( of Justice:

                                                            Federal Bureau or Prisons




                                                        Jul.y 22. 1994




              MEMORANDUM FOR EXECUTIVE STM'F




              FROH:             L~a~i~
                                Federal Bureau of Prisons
              SUBJECT!          COmpassionate Release Requests
              The Bureau of Prisons has historically taken a conservative
              approach to filinq a motion with the courts for the compassionate
              release of an inmate under 18 U.S.C. § 4205(9) or
              § 3582(.c)(1)(A).   Until recently, our qeneral quideline was to
              rec01!DDend release of an inmate only in cases of terminal ill-ness
              when life expectancy was six lIIOnths or less. Not many months
              ago, we extended the time limit to a one year life expectancy as
              long as medical staff f~lt comfortable with the accuracy Of their
              prediction of 1ife expectancy. Of course, this is a general
              guideline, not a requirement.
              As we have further reviewed this issue, i t has come to our
              attention that there may be other cases that merit consideration
              for   re~ease.   These cases   sti~1   fa~~    within the medical arena,
             but may not be terminal or lend themselves to a precise
             prediction of 1ife expectancy. Nevertheless. such cases may be
             extremely serious and debilitating.
             While each case must be jUdged on an individual basis, with
             consideration of a number of factors, we are wi~linq to consider
             other cases for possible recommendation for rele.ase. In
             evaluating individual cases that you may wish to submit, you and
             your starf should consider and balance the followinq factors, in
             addition to others that may bear on your recommendation:
                         the nature and circumstances of the offense (e.g., was
                         violence or a weapon used);




U.S. Department of Justice                                                                 67
Office of the Inspector General
Evaluation and Inspections Division
                          the crimina1 and personal history and characteristics
                          of the inmate, including an assessment of whether the
                          inmate is likely to participate in criminal activities
                          if released (Does the inmate have other criminal
                          convictions?):
                          the age of the inmate (both current age and age at time
                          of sentencing);
                          the danger, if any, the inmate poses to the
                          public if released (Does the inmate have a history of
                          violence? Could the inmate still commit his/her prior
                          offense even in his/her present condition?);
                          appropriate release plans, inoluding family or outSide
                          resources (Does the inmate have insuranoe or the
                          ability to pay for neoessary medical care? If released,
                          WOUld the CQst of care be borne by taxpayers?);
                          the nature and severity o~ the inmate's illness,
                          including consideration of whether outside medical care
                          will be necessary; for example:
                              an inmate with severe debilitating heart or
                              kidney disease that clearly 1illlits his or her
                              c!laily activity and in whicb. conventional treatment
                              such as lIladication, dialysis, or other measures
                              are not sufficient to stabilize the disease or
                              il1ness;
                              an inmate with a terlllinal illness, but no
                              definitive life expectancy can be determined.

                         Cases which could be remedied with transplantation
                         will be considered, but other factors such as time
                         remaining on the inmate's sentence will be
                         weighed heavily to determine if a release motion
                         is appropriate;
                         the length of the inmate's sentence and the amount of
                         time left to serve.
           ~hesefactors are not criteria which the inDate must meet to
           ~alify for consideration~ rather, they are guidelines which
           :houldbe evaluated before staff make a final decision. Staff
           :houldnot recommend COlIlpassionate release merely bocause the
           nmate has met a lIlajorlty of the above factors.  Instead, staff
           hould rely on their correctional judgment, available
           ~cumentation, and verifiable information in making
            ecommendations_

            f:   OGC -    LeI
                 File -    Exec Staff, OGC




U.S. Department of Justice                                                            68
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX IV: TALKING POINTS PREPARED FOR PRESENTATIONS 

      BY THE BOP’S GENERAL COUNSEL TO WARDENS AND 

                     OTHER BOP STAFF 



The following was provided by the BOP and presented verbatim by the
OIG.

I. Legal Authority and Procedures

   A. 18 U.S.C. § 3582(c)(1)(A)(i), gives the BOP Director the statutory
      authority and discretion to motion the sentencing court to reduce
      an inmate’s term of imprisonment in extraordinary or compelling
      circumstances.

   B. The BOP only exercises this authority when the “extraordinary and
      compelling circumstances” involve an inmate who is suffering from
      a life-threatening or terminal medical condition, or who is severely
      and permanently mentally or physically debilitated.

   C. Procedurally, in accordance with BOP policy and 28 C.F.R. 

      § 571.60 et seq.: 


       	 An inmate or an inmate’s family or representative may initiate a
          RIS request at the institution level.
       	 If the Warden determines that a RIS is warranted, the Warden
          will forward a written recommendation together with the RIS
          package to the Regional Director.
       	 If the Regional Director agrees that a RIS is warranted, the
          Regional Director will forward a written recommendation
          together with the RIS package to the Office of General Counsel.
       	 If the General Counsel, after obtaining a medical
          recommendation from the Medical Director, agrees that a RIS is
          warranted, legal staff prepare a draft Motion and Order, and a
          letter for the Director’s signature requesting that the U.S.
          Attorney in the sentencing jurisdiction submit the Motion for a
          RIS to the sentencing court.
       	 If the Director agrees that the RIS is warranted, she will sign
          the letter and forward it, together with the draft Motion, and
          Order to the US Attorney’s Office.
       	 The inmate may appeal the Warden’s or Regional Director’s
          denial through the administrative remedy process.




U.S. Department of Justice                                              69
Office of the Inspector General
Evaluation and Inspections Division
II. Expanded Medical Criteria for Reduction in Sentence

   A. Terminal illness (with a life expectancy of one year or less); or

   B. Severely physically or cognitively debilitated which significantly
      impairs physical and/or mental function and will not improve with
      treatment seriously limits daily activities.

III. Guidelines for Inmate Eligibility for a Reduction in Sentence
(RIS)

   A. If an inmate meets the medical criteria for RIS consideration, staff
       should rely on all available documents, correctional judgment, and
       verifiable information when making a recommendation for RIS.
       Staff should consider:

       	 the nature and circumstances of the offense. E.g., Was violence
          or a weapon involved in the offense?
       	 the criminal and personal history, and characteristics of the
          inmate. E.g., Are there other criminal convictions that are
          serious or share similar characteristics?
       	 the likelihood the inmate will participate in criminal activities if
          released.
       	 the inmate’s current age, age at the time of sentencing, and
          whether the inmate could still commit his/her offense in
          his/her current medical condition.
       	 whether the court likely knew or foresaw, based on the inmate’s
          age and medical history or condition at the time of sentencing,
          that the inmate would probably die before completing his/her
          sentence.
       	 the danger, if any, the inmate poses to the public or
          himself/herself if released. Does the inmate have a history of
          violence?
       	 the length of the sentence and the amount of time left to serve
          on the sentence.
       	 appropriateness of the release plan. E.g., Does the inmate have
          an adequate support system including family, financial, and
          medical resources?

IV. Sentencing Commission Guidelines Amendment 1B1.13

   A. Effective November 1, 2007, for these amendments.

      • Extraordinary and Compelling Reasons.

       	 The defendant is suffering from a terminal illness.

U.S. Department of Justice                                                 70
Office of the Inspector General
Evaluation and Inspections Division
       	 The defendant is suffering from a permanent physical or
          medical condition, or is experiencing deteriorating physical or
          mental health because of the aging process, that substantially
          diminishes the ability of the defendant to provide self-care
          within the environment of a correctional facility and for which
          conventional treatment promises no substantial improvement.
       	 The death or incapacitation of the defendant’s only family
          member capable of caring for the defendant’s minor child or
          minor children.
       	 As determined by the Director of the BOP, there exists in the
          defendant’s case an extraordinary and compelling reason other
          than, or in combination with, the reasons described in
          subdivisions (i), (ii), and (iii).

   	 Do not summarily deny cases that fall within these guideline
      parameters but outside BOP criteria. Denials of these requests
      should address these issues but stay within BOP medical criteria.

   	 Contact legal counsel in the CLC, Regional Office, or Central Office
      for assistance.




U.S. Department of Justice                                              71
Office of the Inspector General
Evaluation and Inspections Division
                       APPENDIX V: REQUEST DECISIONS 



       From 2006 through 2011, Wardens and Regional Directors
approved and forwarded 211 inmate requests to the BOP’s Central Office
for review.66 The BOP Director considered those requests and approved
142 (68 percent) and denied 38 (18 percent). We also found that in 28
(13 percent) cases, the inmates died while their requests were being
considered by the BOP’s Central Office and before a decision was made
by the BOP Director. Table 2 shows the number of requests forwarded to
the BOP’s Central Office by Wardens and Regional Directors from 2006
through 2011, and the number of those requests that were approved and
denied by the BOP Director, as well as the number of inmates who died
while their requests were being considered by the BOP’s Central Office.

Table 2: Requests Approved and Denied by the BOP’s Central Office
   and Inmates who Died Before a Decision, 2006 through 2011
                                                             Died Before
                Year         Approved        Denied
                                                              Decision
                2006             28             10                 5
                2007             16             10                 4
                2008             27              3                 7
                2009             17              5                 3
                2010             25             6                  7
                2011             29             4                  2
               Total            142            38                 28
          Source: BOP.

Of the requests received by the BOP’s Central Office that we reviewed, we
found that 206 requests (99 percent) were for medical reasons and 2
requests (1 percent) were for non-medical reasons. Of the 142 requests
approved by the BOP Director, 118 requests (83 percent) were because
the inmates had terminal medical conditions and limited life expectancy,
and 24 requests (17 percent) were for severely debilitating medical
conditions. Table 3 shows the reasons requests were approved by the
BOP Director from 2006 through 2011.

        66 The BOP provided the OIG with 212 cases files that the BOP OGC received

from 2006 through 2011. We reviewed 208 case files where a decision to approve or
deny was made, or the inmate died before a decision. We did not include one duplicate
case file for an approved inmate. In addition, we did not review the case files for three
inmates who did not receive a decision, including one inmate whose sentence was
vacated by the court, one inmate who withdrew the request, and one inmate whose case
was referred for a criminal matter.



U.S. Department of Justice                                                            72
Office of the Inspector General
Evaluation and Inspections Division
   Table 3: Reasons Requests Were Approved, 2006 through 2011
                                         Terminal Illness
                                                                Debilitating
                 Year      Requests      and Limited Life
                                                                Conditions
                                           Expectancy
                 2006         28               24                    4
                 2007         16               14                    2
                 2008         27               23                    4
                 2009         17               14                    3
                 2010         25               21                    4
                 2011         29               22                    7
               Total         142               118                   24
          Source: BOP.

      Of the 38 requests denied by the BOP’s Director, 22 (58 percent)
were due to the seriousness of the inmate’s offense or criminal history,
8 (21 percent) were because the inmate’s circumstances did not meet the
BOP’s medical criteria, 1 (3 percent) was because the court knew about
the inmate’s circumstances at the time of sentencing, and 7 (18 percent)
were a combination of these factors. Table 4 shows the reasons requests
were denied by the BOP’s Director from 2006 through 2011.

    Table 4: Reasons Requests Were Denied, 2006 through 2011
                        Seriousness of                      Court Aware
                                          Did Not Meet
                          Offense or                        of Condition
Year     Requests                           Medical                        Combination
                           Criminal                            During
                                            Criteria
                           History                           Sentencing
2006        10                7                1                 0              2
2007        10                8                2                 0              0
2008         3                2                0                 0              1
2009         5                2                2                 0              1
2010         6                2                2                 0              2
2011         4                1                1                 1              1
Totals      38               22                8                 1             7
Source: BOP.




U.S. Department of Justice                                                          73
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX VI: FEDERAL BUREAU OF PRISONS’ RESPONSE TO 

                      DRAFT REPORT 




                                       U.S. Oepurlrnent of.Justice

                                       Pederal Bureau Qf Pri~on~




                                      April 17, 2013




  MEMORANDUM FOR SARAH E. BATIPPS
                 DIRECTOR, EVALUATION AND INSPECTIONS
                 OFFICE OF INSPECTOR GENERAL



  THRU:           Thomas R. Kane
                  Deputy Director
                  Federal Bureau of Prisons



  !"ROM:          c~. ~~
                  Director
                  Federal Bureau of Prisons

  SUBJECT:        Response to the Office of Inspector General's Draft
                  Report - The Federal Bureau of Prisons•
                  Compassionate Release Program

  The Bureau of Prisons {BOP or Bureau) appreciates the opportunity
  :o comment upon the Office of the Inspector General (OIG)
  above-referenced draft report as well as to respond to the
  recommendations directed at the BOP. Please find below the
  recommendations directed at the Bureau and the Bureau's response to
  each recommendation. For the reasons set forth below, we
  respectfully request that Recommendations 5 and 11 be closed at this
  time.

  OIG Re commendation #l.: Consider appropriately expanding the use of
  :he compassionate release program as authorized by Congress and as




U.S. Department of Justice                                               74
Office of the Inspector General
Evaluation and Inspections Division
  described in the BOP's regulations and Program Statement to cover
  both medical and non-medical conditions for inmates who do not
  present a threat to the community and who present a minimal risk of
  recidivism.

  BOP Re sponse : Aa the BOP has advised OI G, the Bureau is already in
  the process o~ reviewing and modifying aspects of the compassionate
  release program. The BOP plans to issue new guidance on medical
  criteria to consider in determining whether a request based on
  underlying medical circumstances is •extraordinary and compelling"
  to warrant a compassionate release motion to a sentencing judge.
  Additionally, the BOP has already started a process to consider the
  subject of non-medical compassionate release.

  OIG Reco111111endation #2 t Update written national policies, including
  its compassionate release regulations and Program Statement, to
  accurately reflect the BOP's criteria for determining eligible
  medical and non- medical requests.

  BOP Response t The BOP concurs with this recommendation. As noted
  above, the BOP plans to issue a guidance memorandum that will clarify
  criteria to be considered in reviewing medical requests until the
  revised compassionate release regulations and Program Statement are
  finalized. Additionally, as your report notes, the BOP is already
  in the process of revising its regulations and Program Statement .
  Changes to policy in the Program Statement will need to be negotiated
  with the union. Changes to the regulations will need to go through
  formal notice and comment procedures.

  OIG Recommendation #3 : Provide training for BOP staff responsibl e
  for reviewing inmate requests and applying the criteria for
  evaluating medical and non-medical requests.

  BOP Response: The BOP concurs with this recommendation. Training
  will be provided to staff. However, given budget limitations,
  training may be provided in an on-line and/or video conference
  format.

  OIO Recommendation t4: Establish timeframes for processing
  requests at each step of the review process, including Warden,
  Central Office, and external agency input and review.

  BOP Response1 The BOP concurs in part with this recommendation.
  BOP agrees that general guidelines for reviewing a request should
  be established. However, any time frame will need to be flexible
                                      2




U.S. Department of Justice                                                  75
Office of the Inspector General
Evaluation and Inspections Division
   so that the specific circumstances of each case can be thoroughly
   assessed and considered (e.g., if additional time is needed to
   establish an appropriate release plan for an inmate) .

   OIG Recommendation #5: Establish timeframes for handling inmate
   appeals that take into account the time sensitivity of compassionate
   release requests.

   BOP Response: The BOP requests this recommendation be closed. We
   concur that inmate appeals should be expedited . However, current
   regulations concerning administrative remedies already provide for
   expedited processing in certain circumstances. 28 C.F.R. §542.18
   states in pertinent part, " . . . [i]f the Request is determined
   to be of an emergency nature which threatens the inmate's immediate
   health or welfare, the Warden shall respond not later than the third
   calendar day after filing . . . . " Accordingly, BOP will now advise
   staff to use this provision for time sensitive compassionate release
   requests based on underlying terminal medical conditions.
   Instruction to staff to utilize this provision in these circumstances
   will be provided during staff training sessions noted in our response
   to OIG Recommendation #3 .

   OIG Recommendation #6: Require that all inmates be informed about
   the compassionate release program, including how to initiate a
   request and circumstances that may qualify as "extraordinary and
   compelling."

   BOP Response: The BOP concurs with this recommendation. The Bureau
   already provides information about the compassionate release program
   to inmates through the electronic law library. In addition, the BOP
   plans to provide information relating to its new medical guidance
   on the Inmate Electronic Bulletin Board. The BOP is already
   developing a standardized Admissions and Orientation Handbook (A&O
   Handbook) to be used at all of the Bureau's institutions. BOP plans
   to include information about compassionate release in the new A&O
   Handbook.

   OIG Recommendation #7: Track each compassionate release request,
   its status, and final disposition.

   BOP Response: The BOP concurs with this recommendation. The BOP
   is currently working to develop an electronic tracking system to
   address this recommendation. The BOP anticipates that the
   electronic tracking system will go live by September 30, 2013.

                                      3




U.S. Department of Justice                                                 76
Office of the Inspector General
Evaluation and Inspections Division
    OIG Recommendation #8: Establish a procedure to formally document
    the initiation, including the initiation date, for each
    compassionate release request.

    BOP Response: The BOP concurs with this recommendation. As noted
    in response to OIG Recommendation #7, the BOP is currently working
    to develop an electronic tracking system to track data related to
    all compassionate release requests. The BOP will also provide
    training to staff on procedures to use when inputting information
    to the electronic tracking system. The BOP plans to incorporate
    these procedures into its revised Program Statement.

    OIG Recommendation #9: Require that Wardens document the specific
    reasons for denying an inmate's request for compassionate release.

    BOP Response: The BOP concurs with this recommendation. The new
    electronic tracking system procedures will require Wardens to
    provide the reason for denying an inmate's compassionate release
    request.

    OIG Recommendation #10: Include as part of BOP program compliance
    reviews an element for reviewing compassionate release
    determinations made by Wardens.

    BOP Response: The BOP concurs with this recommendation.
    Compliance reviews involving compassionate release will affect
    several disciplines at the institution level (e.g., Unit Management,
    Correctional Services, Health Services, etc.) . The BOP will review
    its program review policies to ensure guideline steps, by discipline,
    are incorporated into existing Program Review Guidelines.

    OIG Recommendation #11 : Collect and assess the costs for providing
    health services to inmates diagnosed with terminal medical
    conditions and a limited life expectancy, and severely debilitating
    medical conditions.

    BOP Response: The BOP concurs in part with this recommendation.
    The BOP believes it would be time and labor intensive to attempt to
    calculate medical costs for all inmates who have been diagnosed with
    terminal medical conditions and a limited life expectancy, and
    non-terminal medical conditions. Further, these costs will likely
    vary in each individual case depending on the intensity of medical
    and custodial care needed over time, the unpredictable nature of an
    inmate's medical condition and costs of medical treatment over the
    course of care, and the area of the country the care is being provided,
                                      4




U.S. Department of Justice                                                    77
Office of the Inspector General
Evaluation and Inspections Division
  among other factors . Any calculations would have to be based on
  estimates and average costs . Despite these limitations, BOP concurs
  that tracking an estimated cost savings for inmates for whom the BOP
  submitted a compassionate release motion to the sentencing judge and
  the judge granted early release could be useful. Therefore, the BOP
  will use the current Actual Annual Cost of Incarceration Rate for
  each BOP Medical Referral Center and calculate the estimated cost
  avoidance related to each BOP approved compassionate release case
  for which the inmate is ultimately released . Accordingly, we
  request this recommendation be closed .

  If you have any questions regarding this response, please contact
  Sara M. Revell, Assistant Director, Program Review Division, at
   {202) 353-2302   0




                                      5




U.S. Department of Justice                                          78
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX VII: OIG ANALYSIS OF FEDERAL BUREAU OF PRISONS’ 

                         RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Federal Bureau of Prisons for its comment. The BOP’s response is
included in Appendix VI to this report. The OIG’s analysis of the BOP’s
response and the actions necessary to close the recommendations are
discussed below. Please provide requested information and
documentation by July 31, 2013.

Recommendation 1: Consider appropriately expanding the use of the
compassionate release program as authorized by Congress and as
described in the BOP’s regulations and Program Statement to cover both
medical and non-medical conditions for inmates who do not present a
threat to the community and who present a minimal risk of recidivism.

       Status: Resolved.

      BOP Response: The BOP concurred with this recommendation,
stating that it is in the process of reviewing and modifying aspects of the
compassionate release program and plans to issue new guidance on
medical criteria to consider in determining whether a request based on
underlying medical circumstances is “extraordinary and compelling” to
warrant a compassionate release motion to a sentencing judge. The BOP
stated it had already started a process to consider the subject of non-
medical compassionate release.

       OIG Analysis: The BOP’s actions are responsive to this
recommendation. As discussed throughout the report, the BOP verbally
told the OIG, but did not provide copies, of the new guidance
memorandum for medical institutions that will expand the
compassionate release program by making inmates with a life expectancy
of up to 18 months eligible for consideration. The BOP told the OIG that
the new memorandum is also intended to assist staff who review
compassionate release requests in understanding what level of
functioning is sufficiently “extraordinary and compelling” for inmates
with debilitating medical conditions to be considered for release. Please
provide the OIG with a copy of the new approved guidance on medical
criteria for medical institutions, a description of how the BOP plans to
further modify other aspects of the compassionate release program, and
actions taken to consider non-medical requests for compassionate
release.




U.S. Department of Justice                                               79
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 2: Update written national policies, including its
compassionate release regulations and Program Statement, to accurately
reflect the BOP’s criteria for determining eligible medical and non-
medical requests.

       Status: Resolved.

       BOP Response: The BOP concurred with this recommendation,
stating that the BOP plans to issue a guidance memorandum that will
clarify criteria to be considered in reviewing medical requests until the
revised compassionate release regulations and Program Statement are
finalized. The BOP stated that it has already started the process of
revising its regulations and Program Statement. Changes to policy in the
Program Statement will need to be negotiated with the union, and
changes to the regulations will need to go through formal notice and
comment procedures.

       OIG Analysis: The BOP’s actions are responsive to this
recommendation. However, as discussed on page 26 of this report, the
BOP’s General Counsel explained that the process to revise the Program
Statement could take about 2 years after new regulations are adopted
due to the requirement that the BOP negotiate changes to the Program
Statement with its union. We are concerned about such a lengthy
potential delay in issuing a revised Program Statement given the lack of
guidance in the existing Program Statement. While we believe the new
guidance the BOP verbally discussed with the OIG will benefit staff at the
BOP’s medical institutions when considering medical requests for
compassionate release, staff and inmates at all BOP institutions should
be provided with the most current guidance regarding the compassionate
release program. Given the time-sensitive nature of these requests,
efforts must be made to expedite the process to finalize and issue revised
regulations and the Program Statement. Please provide the OIG with
copies of the revised regulations and Program Statement, as well as a
timeline for finalizing and issuing the revised regulations and Program
Statement.

Recommendation 3: Provide training for BOP staff responsible for
reviewing inmate requests and applying the criteria for evaluating
medical and non-medical requests.

       Status: Resolved.

      BOP Response: The BOP concurred with this recommendation,
stating that it will provide training to staff, but that due to budget



U.S. Department of Justice                                               80
Office of the Inspector General
Evaluation and Inspections Division
limitations, training may be provided in an online or video conference
format.

       OIG Analysis: The BOP’s planned action is responsive to this
recommendation. However, given the lack of guidance in the existing
Program Statement, we believe any training provided to staff must reflect
the most current guidance, including any guidance provided in the new
memorandum discussed throughout this report. In addition, training
must be revised to reflect any changes resulting from ongoing revisions
to the BOP’s regulations and Program Statement regarding
compassionate release. Please provide the OIG a copy of training
provided to staff.

Recommendation 4: Establish timeframes for processing requests at
each step of the review process, including Warden, Central Office, and
external agency input and review.

       Status: Resolved.

       BOP Response: The BOP partially concurred with this
recommendation, stating that it agreed that general guidelines for
reviewing a request should be established, but that any timeframe will
need to be flexible so that the specific circumstances of each case can be
thoroughly assessed and considered, such as if additional time is needed
to establish an appropriate release plan for an inmate.

       OIG Analysis: The BOP’s response is partially responsive to this
recommendation in that the BOP agrees to establish general guidelines
for reviewing requests. As stated in the report, the OIG recognizes the
complexity and importance of the compassionate release review process.
However, given the time-sensitive nature of these requests, particularly
for inmates with terminal medical conditions and limited life
expectancies, establishing timeframes and assessing the length of time
the process takes for each phase of the review process will enable the
BOP to determine if delays in the process exist and where to take
corrective actions so that the review process may progress as quickly as
possible. Please provide the OIG with the general guidelines the BOP
plans to implement at each step of the review process that take into
account the time-sensitive nature of compassionate release requests.

Recommendation 5: Establish timeframes for handling inmate appeals
that take into account the time sensitivity of compassionate release
requests.

       Status: Resolved.


U.S. Department of Justice                                               81
Office of the Inspector General
Evaluation and Inspections Division
       BOP Response: The BOP concurred with this recommendation,
stating that inmate appeals should be expedited. However, the BOP
stated that current regulations concerning administrative remedies
already provide for expedited processing in certain circumstances. The
BOP referenced 28 C.F.R. § 542.18, which states, “. . . [i]f the Request is
determined to be of an emergency nature which threatens the inmate’s
immediate health or welfare, the Warden shall respond not later than the
third calendar day after filing . . . .” The BOP stated that staff will be
advised to use this provision for time-sensitive compassionate release
requests based on underlying terminal medical conditions and that
instruction to staff to use this provision in these circumstances will be
provided during staff training sessions noted in its response to
Recommendation 3. The BOP requested that this recommendation be
closed.

       OIG Analysis: The BOP’s planned action is partially responsive to
this recommendation in that it agrees inmate appeals should be
expedited. While the OIG agrees that training to advise staff to use the
provision established in 28 C.F.R. § 542.18 for compassionate release
requests based on underlying terminal medical conditions will be helpful,
the BOP’s response did not acknowledge the role of a Regional Director or
General Counsel in the inmate appeals process. As noted on page 4 of
this report, the BOP published an interim rule that expedited the
compassionate release process by removing the Regional Director level of
review. However, the BOP’s administrative remedy program still requires
review by the Regional Director and the General Counsel for an inmate to
seek formal review (appeal) by high-level BOP officials of an issue relating
to any aspect of his or her incarceration, including any aspect of a
compassionate release request. As discussed on page 41, we found that
in some cases a Regional Director and the General Counsel took over 100
days to respond to inmate appeals regarding compassionate release.
Please provide the OIG a status update that includes the roles of a
Regional Director and General Counsel when establishing timeframes for
handling inmate appeals that take into account the time sensitivity of
compassionate release requests.

Recommendation 6: Require that all inmates be informed about the
compassionate release program, including how to initiate a request and
circumstances that may qualify as “extraordinary and compelling.”

       Status: Resolved.

      BOP Response: The BOP concurred with this recommendation,
stating that the BOP plans to provide information relating to its new
medical guidance on the Inmate Electronic Bulletin Board. The BOP also


U.S. Department of Justice                                               82
Office of the Inspector General
Evaluation and Inspections Division
said it is developing a standardized Admissions and Orientation
Handbook (A&O Handbook) to be used at all BOP institutions and that
the BOP plans to include information about compassionate release in the
new A&O Handbook.

      OIG Analysis: The BOP’s planned actions are responsive to this
recommendation. Please provide the OIG with a screenshot of the new
medical guidance provided on the Inmate Electronic Bulletin Board, as
well as a copy of the new standardized A&O Handbook with the
information about compassionate release.

Recommendation 7: Track each compassionate release request, its
status, and final disposition.

       Status: Resolved.

      BOP Response: The BOP concurred with this recommendation,
stating that it is developing an electronic tracking system. The BOP
stated that it anticipates the electronic tracking system will go live by
September 30, 2013.

       OIG Analysis: The BOP’s planned action is responsive to this
recommendation. Please provide the OIG with a screenshot of the
electronic tracking system and a description of data to be collected.

Recommendation 8: Establish a procedure to formally document the
initiation, including the initiation date, for each compassionate release
request.

       Status: Resolved.

      BOP Response: The BOP concurred with this recommendation,
stating that it will provide training to staff on procedures to input
information into the electronic tracking system discussed in response to
Recommendation 7. The BOP also stated that it plans to incorporate
these procedures into its revised Program Statement.

       OIG Analysis: The BOP’s planned actions are responsive to this
recommendation. Please provide the OIG with a screenshot of the
electronic tracking system that indicates how the initiation of a
compassionate release request will be formally documented and a
description of the procedures for formally documenting the initiation of
each request that the BOP plans to use in staff training and to
incorporate into the revised Program Statement.



U.S. Department of Justice                                                  83
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 9: Require that Wardens document the specific
reasons for denying an inmate’s request for compassionate release.

       Status: Resolved.

      BOP Response: The BOP concurred with this recommendation,
stating that the new electronic tracking system procedures will require
Wardens to provide the reason for denying an inmate’s compassionate
release request.

       OIG Analysis: The BOP’s planned action is responsive to this
recommendation. Please provide the OIG with a screenshot of the
electronic tracking system that indicates how a Warden will document
the specific reasons for denying an inmate’s request for compassionate
release.

Recommendation 10: Include as part of BOP program compliance
reviews an element for reviewing compassionate release determinations
made by Wardens.

       Status: Resolved.

       BOP Response: The BOP concurred with this recommendation,
stating that compliance reviews involving compassionate release will
affect several disciplines at the institution level and that it will review its
program review policies to ensure guideline steps, by discipline, are
incorporated into existing Program Review Guidelines.

      OIG Analysis: The BOP’s planned action is responsive to this
recommendation. Please provide the OIG with copies of the revised
Program Review Guidelines that ensure guideline steps, by discipline,
involving compassionate release are included in institution compliance
reviews.

Recommendation 11: Collect and assess the costs for providing health
services to inmates diagnosed with terminal medical conditions and a
limited life expectancy, and severely debilitating medical conditions.

       Status: Resolved.

      BOP Response: The BOP partially concurred with this
recommendation, stating that it could be useful to track an estimated
cost savings for inmates for whom the BOP submitted compassionate
release motions to the sentencing judges and the judges granted early
release. However, the BOP stated that it would be time and labor


U.S. Department of Justice                                                   84
Office of the Inspector General
Evaluation and Inspections Division
intensive to attempt to calculate medical costs for all inmates who have
been diagnosed with terminal medical conditions and a limited life
expectancy and non-terminal medical conditions. The BOP stated that
these costs will likely vary in each individual case depending on the
intensity of medical and custodial care needed over time, the
unpredictable nature of an inmate’s medical condition and costs of
medical treatment over the course of care, and the area of the country in
which the care is being provided, among other factors. The BOP also
stated that any calculations would have to be based on estimates and
average costs. Therefore, the BOP will use the current Actual Annual
Cost of Incarceration Rate for each BOP Medical Referral Center and
calculate the estimated cost avoidance related to each BOP-approved
compassionate release case in which the inmate is ultimately released.
The BOP requested that this recommendation be closed.

       OIG Analysis: The BOP’s planned action is partially responsive to
this recommendation. The OIG agrees that it would be useful to track
the estimated cost savings for inmates for whom the BOP submitted
compassionate release motions to the sentencing judges and the judges
granted early release. The OIG also agrees that costs will vary for each
individual. However, the OIG believes the BOP is capable of identifying
individual costs for inmates typically associated with compassionate
release, including those inmates diagnosed with a terminal illness or
severely debilitated condition. For example, the Health Services
Administrator at one Medical Referral Center explained to the OIG that
the institution-verified costs vary from patient to patient because the
institution, using a spreadsheet, tracks the specific costs for each
inmate, including inmates diagnosed with a specific medical condition,
such as cancer.

       The OIG believes the care for inmates associated with
compassionate release is unique and must be identified individually to
fully understand the per-inmate cost, as well as the savings realized by
the release of these inmates. Therefore, the OIG encourages the BOP to
coordinate with its Medical Referral Centers to better understand all
efforts made to identify individual costs per inmate and how those efforts
could be applied to the compassionate release program. Please provide
the OIG with estimated cost savings using the current Actual Annual
Cost of Incarceration Rate for each BOP Medical Referral Center for
inmates approved and released for compassionate release for calendar
years 2006 through 2011. In addition, please provide the OIG with a
description of any efforts made by the BOP to coordinate with its Medical
Referral Centers to better understand all efforts made to identify
individual costs per inmate and how those efforts could be applied to the
compassionate release program.


U.S. Department of Justice                                              85
Office of the Inspector General
Evaluation and Inspections Division
